1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2017-2463
MARK A. BARRY,
Plaintiff-Appellee,
v.
MEDTRONIC, INC.,
Defendant-Appellant.
Appeal from the United States District Court for
the Eastern District of Texas in No. 1:14-cv-00104-RC,
Chief Judge Ron Clark.
Decided: January 24, 2019
OPINION
Before PROST, Chief Judge, MOORE and TARANTO,
Circuit Judges.
Opinion for the court filed by Circuit Judge TARANTO.
Opinion dissenting in part filed by Chief Judge PROST.
TARANTO, Circuit Judge.
Dr. Mark Barry brought this action against Medtronic, Inc., alleging that Medtronic induced surgeons to
infringe U.S. Patent Nos. 7,670,358 and 8,361,121, which
Dr. Barry owns and which name him as the sole inventor. The jury found infringement of method claims 4 and
5 of the ’358 patent and system claims 2, 3, and 4 of the

2a
’121 patent, rejected Medtronic’s several invalidity defenses, and awarded damages. In post-trial rulings on
the jury issues, Barry v. Medtronic, Inc., 230 F. Supp. 3d
630 (E.D. Tex. 2017) (Barry), the district court upheld
the verdict as relevant here—rejecting challenges as to
induced infringement and associated damages for domestic conduct, id. at 640–47, 650–51, invalidity of the
asserted ’358 patent claims under the public-use and onsale bars, id. at 653–59, and invalidity of all asserted
claims due to another’s prior invention, id. at 659–63.
The district court then rejected Medtronic’s inequitableconduct challenge, Barry v. Medtronic, Inc., 245 F. Supp.
3d 793, 823 (E.D. Tex. 2017) (Inequitable Conduct Op.),
and, in a ruling not separately challenged on appeal, enhanced damages by twenty percent while denying attorney’s fees to Dr. Barry, Barry v. Medtronic, Inc., 250 F.
Supp. 3d 107, 111, 119 (E.D. Tex. 2017) (Enhancement
Op.). Medtronic appeals on numerous grounds, principally concerning the public-use and on-sale statutory
bars, but also concerning prior invention, inequitable
conduct, and induced infringement and associated damages. We affirm.
I
A
Both patents at issue are entitled “System and
Method for Aligning Vertebrae in the Amelioration of
Aberrant Spinal Column Deviation Conditions.” The
patents claim methods and systems for correcting spinal column anomalies, such as those due to scoliosis, by
applying force to multiple vertebrae at once. ’358 patent, col. 2, line 63, through col. 3, line 6; ’121 patent, col.
3, line 53, through col. 4, line 2. The ’358 issued in 2010
from an application that Dr. Barry filed on December
30, 2004. The ’121 patent issued in 2013 from an appli-

3a
cation—a continuation of an August 2005 application
that was a continuation-in-part of the December 30,
2004 application—that Dr. Barry filed in 2010.
The asserted claims of the ’358 patent are method
claims 4 and 5. They depend ultimately on independent
claim 1, which reads:
1. A method for aligning vertebrae in the amelioration of aberrant spinal column deviation conditions comprising the steps of:
selecting a first set of pedicle screws, said
pedicle screws each having a threaded
shank segment and a head segment;
selecting a first pedicle screw cluster derotation tool, said first pedicle screw cluster
derotation tool having first handle means
and a first group of pedicle screw engagement members which are mechanically
linked with said first handle means, each
pedicle screw engagement member being
configured for engaging with, and transmitting manipulative forces applied to said
first handle means to said head segment of
each pedicle screw of said first set of pedicle screws,
implanting each pedicle screw in a pedicle
region of each of a first group of multiple
vertebrae of a spinal column which exhibits
an aberrant spinal column deviation condition;
engaging each pedicle screw engagement
member respectively with said head segment of each pedicle screw of said first set
of pedicle screws; and

4a
applying manipulative force to said first
handle means in a manner for simultaneously engaging said first group of pedicle
screw engagement members and first set
of pedicle screws and thereby in a single
motion simultaneously rotating said vertebrae of said first group of multiple vertebrae in which said pedicle screws are implanted to achieve an amelioration of an
aberrant spinal column deviation condition;
selecting a first length of a spinal rod
member; wherein one or more of said pedicle screws of said first set of pedicle screws
each includes:
a spinal rod conduit formed substantially transverse of the length of said
pedicle screw and sized and shaped for
receiving passage of said spinal rod
member therethrough; and
spinal rod engagement means for securing said pedicle screw and said spinal rod member, when extending
through said spinal rod conduit, in a
substantially fixed relative position
and orientation;
extending said first length of said spinal
rod member through said spinal rod conduits of one or more of said pedicle screws
of said first set of pedicle screws; and
after applying said manipulative force to
said first handle means, actuating said spinal rod engagement means to secure said
vertebrae in their respective and relative

5a
positions and orientations as achieved
through application of said manipulative
force thereto.
’358 patent, col. 6, lines 7–56. Claim 2, which depends
on claim 1, adds steps requiring a second set of pedicle
screws and a second derotation tool with a second
group of engagement members and a second “handle
means.” Id., col. 6, line 57, through col. 7, line 15. Claim
3, which depends on claim 2, adds steps requiring a second spinal rod. Id., col. 7, line 16, through col. 8, line 11.
Claim 4, which depends on claim 3, adds that the steps
of applying “manipulative force” to the first and second
handle means “are carried out substantially simultaneously to cooperatively achieve an amelioration of an aberrant spinal column deviation condition.” Id., col. 8,
lines 12–17. Claim 5 adds the same requirement to
claim 2 (on which it depends). Id., col. 8, lines 18–23.
The asserted claims of the ’121 patent are system
claims 2–4. Claim 2, an independent claim, reads:
2. A system for aligning vertebrae in the amelioration of aberrant spinal column deviation conditions comprising:
a first set of pedicle screws, each pedicle screw
having a threaded shank segment and a head
segment; and
a first pedicle screw cluster derotation tool,
said first pedicle screw cluster derotation tool
having a first handle means for facilitating simultaneous application of manipulative forces to
said first set of pedicle screws and a first group
of three or more pedicle screw engagement
members which are mechanically linked with
said first handle means, said first handle means

6a
having a handle linked to each pedicle screw
engagement member of the first group of three
or more pedicle screw engagement members
and a linking member to join together the handles linked to the pedicle screw engagement
members, wherein the handle means is configured to move simultaneously each pedicle
screw engagement member; wherein each pedicle screw engagement member is configured to
engage respectively with said head segment of
each pedicle screw of said first set of pedicle
screws; and wherein each pedicle screw engagement member is configured to transmit
manipulative forces applied to said first handle
means to said head segment of each pedicle
screw of said first set of pedicle screws;
a second set of pedicle screws, each pedicle
screw having a threaded shank segment and a
head segment;
a second pedicle screw cluster derotation tool,
said second pedicle screw cluster derotation
tool having a second handle means for facilitating simultaneous application of manipulative
forces to said second set of pedicle screws and a
second group of three or more pedicle screw
engagement members which are mechanically
linked with said second handle means, said second handle means having a handle linked to
each pedicle screw engagement member of the
second group of three or more pedicle screw
engagement members and a handle linking
member to join together the handles linked to
the pedicle screw engagement members,
wherein the handle means is configured to
move simultaneously each pedicle screw en-

7a
gagement member; wherein each pedicle screw
engagement member is configured to engage
respectively with said head segment of each
pedicle screw of said second set of pedicle
screws; and wherein each pedicle screw engagement member is configured to transmit
manipulative forces applied to said second handle means to said head segment of each pedicle
screw of said second set of pedicle screws;
a cross-linking member that links the first handle means to the second handle means.
’121 patent, col. 7, line 57, through col. 8, line 45. The
parties have highlighted the “cross-linking member”
element in identifying the advance of the ’121 patent
claims over those of the ’358 patent. Claim 3, which depends on claim 2, and claim 4, which depends on claim 3,
add requirements that have had no material role in the
arguments made to this court. Id., col. 8, lines 46–58.
B
The following facts form the core of the background
needed to understand the issues before us. Dr. Barry
began working in late 2002 or early 2003 on trying to
link derotation components (which grab screws in vertebrae to move the vertebrae) of devices for ameliorating spinal column deviation conditions. During 2003 he
worked with a sales representative from the DePuy
medical-device company, Mr. Pfefferkorn, to adjust
standard DePuy tools for Dr. Barry’s purposes and in
accordance with Dr. Barry’s ideas. Dr. Barry also
spoke about his ideas with representatives from another company, Spine-Vision. By July 2003, Dr. Barry had
a tool that allowed him to link the screw-grabbing, vertebrae-moving wrenches together.

8a
Dr. Barry used that tool in three surgeries—on
August 4, August 5, and October 14. Dr. Barry testified, without contradiction by any evidence the jury
had to credit, that the three surgeries represent the
three most common types of scoliosis-caused spinal deviation conditions that surgeons typically see. Between
August 2003 and January 2004, the patients in those
surgeries returned to Dr. Barry several times for follow-up appointments. During the follow-up appointments, Dr. Barry viewed x-rays of the patients’ spines,
after they had been able to stand up and walk following
the three-month acute phase of recovery, to determine
if the curvature conditions had been successfully ameliorated by the surgery.
According to Dr. Barry’s testimony at trial, it was
only in January 2004, after the three-month follow-up
for the October 14, 2003 surgery, that he felt confident
that his invention functioned for its intended purpose
and was ready to publicize it in a professional forum.
J.A. 1161–65, 1195–96. He prepared an abstract summarizing the development of his methods and submitted it, by February 1, 2004, for inclusion in the materials to be presented at a July 2004 International Meeting
of Advanced Spinal Techniques—the selection committee for which accepted it in April. On December 30,
2004, he filed the application for what issued as the ’358
patent, making December 30, 2003, the critical date for
that patent for purposes of the public-use and on-sale
bar issues under 35 U.S.C. § 102(b) (2002).1

1

We refer throughout this opinion to the Title 35 provisions
in effect before the changes made by the Leahy-Smith America
Invents Act (AIA), Pub. L. No. 112-29, 125 Stat. 284 (2011), took
effect. As the parties agree, the pre-AIA provisions apply here.

9a
Around the same time, Dr. Lawrence Lenke, a surgeon who works with Medtronic, was also working on a
spinal derotation project. His work began in 2002.
Medtronic contends that Dr. Lenke, through that work,
was a prior inventor and that Dr. Barry’s patents are
therefore invalid under 35 U.S.C. § 102(g).
By 2006, Medtronic introduced its Vertebral Column Manipulation (VCM) kit, which is used in conjunction with Medtronic’s CD Horizon Legacy and Solera
spinal-surgery systems. Dr. Barry alleges that surgeons’ use of that combination infringes the asserted
claims of the two patents at issue and that Medtronic
has induced such infringement through its extensive
training materials and instructions relating to its VCM
kit. As to the latter, instructions appear on the lid of
each kit. Medtronic employees have trained surgeons
in how to use the VCM kit. Medtronic has included instructions for using the VCM kit in surgical guides,
which Dr. Barry’s expert, Dr. Walid Yassir, testified
Medtronic “put ... out all of the time.” J.A. 1782. And
Dr. Lenke testified that he used the VCM kit when performing derotations, even after 2010, the year the ’358
patent issued.
In this case, the jury found for Dr. Barry, and specifically did so on the key issues contested by Medtronic
in this appeal—involving whether Dr. Barry’s ’358 invention was in public use or on sale before December
30, 2003; whether Dr. Lenke was a prior inventor for
both patents; and whether, and to what extent, Medtronic induced infringement. As relevant here, the jury
awarded Dr. Barry $15,095,970 for domestic infringement of the ’358 patent and $2,625,210 for domestic in-

10a
fringement of the ’121 patent. J.A. 135.2 The district
court denied Medtronic’s post-trial challenges regarding induced infringement, Barry, 230 F. Supp. 3d at
640–47; domestic in-infringement damages, id. at 650–
51; invalidity under § 102(b), id. at 653–59; and invalidity under § 102(g), id. at 659–63. The district court also
rejected Medtronic’s charge of inequitable conduct by
Dr. Barry in his interactions with the Patent and
Trademark Office, based on an admitted mistake in
identifying Figure 6 in both patents, finding absent the
intent required for unenforceability on that ground in a
case like this. Inequitable Conduct Op. at 797–98.
On appeal, Medtronic raises issues involving the
§ 102 statutory bars as to the ’358 patent, Br. of Appellant at 26–41; inequitable conduct as to both patents, id.
at 44–48; prior invention as to both patents, id. at 48–
58; and induced infringement and associated damages
as to both patents, id. at 58–67 (infringement), 67–69
(damages). We have jurisdiction under 28 U.S.C.
§ 1295(a)(1).
II
We review the denial of judgment as a matter of
law de novo, and we review the denial of a new trial as
well as rulings on jury instructions for abuse of discretion. i4i Ltd. P’ship v. Microsoft Corp., 598 F.3d 831,
841 (Fed. Cir. 2010) (following Fifth Circuit law), aff’d
on other issues, 564 U.S. 91 (2011). We review evidentiary rulings for an abuse of discretion. Summit 6, LLC
2

The district court eliminated non-domestic infringement and
damages from the judgment, a ruling not on appeal here. Barry,
230 F. Supp. 3d at 647–49. The court also enhanced the domestic
damages by twenty percent (while denying Dr. Barry attorney’s
fees), a ruling not on appeal here. Enhancement Op. at 111, 119;
see J.A. 309 (final judgment).

11a
v. Samsung Elecs. Co., 802 F.3d 1283, 1294–95 (Fed.
Cir. 2015) (following Fifth Circuit law).
A
We begin with Medtronic’s argument for judgment
as a matter of law that the ’358 patent’s asserted claims
are invalid under § 102(b)’s statutory bar on patenting
of inventions in “public use” in the United States more
than one year before the application for the patent was
filed. Here, the application was filed on December 30,
2004, so the critical date for an invalidating domestic
public use is December 30, 2003. We reject Medtronic’s
challenge.
“The public use bar is triggered where, before the
critical date, the invention is in public use and ready for
patenting.” Polara Eng’g Inc v. Campbell Co., 894
F.3d 1339, 1348 (Fed. Cir. 2018) (emphasis added) (internal quotation marks omitted); see also Pfaff v. Wells
Elecs., Inc., 525 U.S. 55, 67 (1998); Invitrogen Corp. v.
Biocrest Mfg., L.P., 424 F.3d 1374, 1379 (Fed. Cir.
2005). “[T]he determination of whether a patent is invalid for public use is a question of law that we review
de novo,” but “the disputed facts found to support that
determination are reviewed for substantial evidence.”
Polara, 894 F.3d at 1348; Manville Sales Corp. v. Paramount Sys., Inc., 917 F.2d 544, 549 (Fed. Cir. 1990).
“We treat the jury’s verdict of no invalidating public
use as a resolution of all genuinely disputed underlying
factual issues in favor of the verdict winner”—here, Dr.
Barry. Polara, 894 F.3d at 1348 (internal quotation
marks omitted).
We discuss “ready for patenting” first, then “in
public use.” We conclude that Medtronic’s § 102(b)
public-use challenge fails on two grounds, which are
substantively related. First, the invention was not

12a
ready for patenting before the critical date. Second,
there was no public use except for an experimental use,
and “[p]roof of experimental use serves as a negation of
the statutory bars,” Polara, 894 F.3d at 1348 (internal
quotation marks omitted); see New Railhead Mfg.,
L.L.C. v. Vermeer Mfg. Co., 298 F.3d 1290, 1297–98
(Fed. Cir. 2002); EZ Dock, Inc. v. Schafer Sys., Inc., 276
F.3d 1347, 1352 (Fed. Cir. 2002).
We place our discussion of experimental use within
our discussion of the “public use” element. This placement fits the facts that commercial exploitation may
sometimes satisfy that element, Invitrogen, 424 F.3d at
1380, and “[t]he law has long recognized the distinction
between inventions put to experimental use and products sold commercially,” Pfaff, 525 U.S. at 64; id. at 64–
65 (discussing Elizabeth v. American Nicholson Pavement Co., 97 U.S. 126, 133–37 (1877)). But this placement is not inevitable: we have observed that “evidence
of experimental use may negate either the ‘ready for
patenting’ or ‘public use’ prong [of the public-use-bar
standard]” and “recogniz[ed] an overlap of the experimental use negation and the ready for patenting standard.” Invitrogen, 424 F.3d at 1379–80 (citing EZ Dock,
276 F.3d at 1352). The overlap is reflected in the fact
that the timing of knowledge that the invention will
“work for its intended purpose” is important to both
experimental use and readiness for patenting. Polara,
894 F.3d at 1348 (describing such an inquiry for both
the “ready for patenting” and “experimental use”
standards); see EZ Dock, 276 F.3d at 1356–57. In any
event, whatever the best doctrinal organization, experimental use negates invalidity under the public use bar.
We discuss both readiness for patenting and experimental use because they are related and because the
dissent, agreeing with Medtronic about the first, ad-

13a
dresses the second to complete its reasoning to support
its conclusion of invalidity under § 102(b).3
1
The jury could reasonably find facts that support
rejection of Medtronic’s contention that Dr. Barry’s
’358 invention was ready for patenting before December 30, 2003. Medtronic’s contention required it to
prove that, before that date, the method was “‘shown or
known to work for its intended purpose.’” Polara, 894
F.3d at 1348 (quoting Helsinn Healthcare S.A. v. Teva
Pharm. USA, Inc., 855 F.3d 1356, 1371 (Fed. Cir. 2017),
cert. granted on a different issue, 138 S. Ct 2678 (2018));
see Electromotive Div. of Gen. Motors Corp. v. Transp.
System Div. of Gen. Elec. Co., 417 F.3d 1203, 1211 (Fed.
Cir. 2005); Manville, 917 F.2d at 550–51. But there is
substantial evidence that Dr. Barry’s invention was not
ready for patenting until January 2004 because the final
follow-up from the October surgery was reasonably
needed for the determination that the invention worked
for its intended purpose.
This court has long held that “the Supreme Court’s
‘ready for patenting test’” from Pfaff, involving the onsale bar, also “applies to the public use bar under
§ 102(b).” Invitrogen, 424 F.3d at 1379. Medtronic accepts in this appeal that, to show readiness for patenting, it had to show (a) a reduction to practice or (b)
3

The dissent proposes several changes to the legal standards
stated in governing case law, such as a change to impose a (high)
burden of persuasion on the patent owner to establish experimental use. Dissent at 14–19. Medtronic has not argued for such
changes. We follow existing case law. We also note that we see
nothing in the dissent’s proposed changes that would alter our
§ 102(b) result—at the least on the sufficient ground that Medtronic failed to establish readiness for patenting.

14a
drawings or descriptions enabling an ordinarily skilled
artisan to practice the invention. Pfaff, 525 U.S. at 67–
68.4 Here, Medtronic’s ability to support judgment as a
matter of law in its favor under that test depends on its
succeeding under the reduction-to-practice alternative.5
Under the test for a reduction to practice, the challenger must show that “the inventor (1) constructed an
embodiment or performed a process that met all the
limitations and (2) determined that the invention would
work for its intended purpose.” In re Omeprazole Patent Litig., 536 F.3d 1361, 1373 (Fed. Cir. 2008) (internal
quotations omitted). What testing was in order to determine whether an invention would work for its intended purpose is one of the subsidiary fact questions
underlying a determination of whether an invention
was in public use. See Z4 Techs., Inc. v. Microsoft
Corp., 507 F.3d 1340, 1352 (Fed. Cir. 2007) (“Because
4

The dissent states that readiness for patenting might be
shown in some other way. Dissent at 7–9. We have no such alternative before us. Reduction to practice and enabling drawings or
descriptions are the sole bases on which Medtronic argues for
readiness for patenting. Br. of Appellant at 29–34. The jury instructions, not challenged here, are similarly limited. J.A. 158–61.
5

On appeal, Medtronic also points to drawings prepared in
November 30, 2003, by a device company, SpineVision, based on
conversations with Dr. Barry, and argues that the drawings show
that “prior to the critical date the inventor [Dr. Barry] had prepared drawings or other descriptions of the invention that were
sufficiently specific to enable a person skilled in the art to practice
the invention.” Pfaff, 525 U.S. at 67–68 (footnote omitted). But
Medtronic identifies no expert testimony making the necessary
enablement showing. The jury could reasonably find that Medtronic failed to prove that descriptions by Dr. Barry (leading to
the SpineVision-prepared drawings of devices), or even the drawings, enabled a person of ordinary skill in the art to practice the
surgical-procedure claims. We therefore limit our discussion in
text to Medtronic’s argument based on reduction to practice.

15a
the necessity and sufficiency of such testing [of an invention to determine if it will work for its intended
purpose] are factual issues, substantial evidence ... will
suffice to support the jury’s verdict.”); Slip Track Sys.,
Inc. v. Metal-Lite, Inc., 304 F.3d 1256, 1268 (Fed. Cir.
2002) (“[W]e leave to the fact finder the determination
of whether testing was necessary ... or whether the
mere construction of the First Prototype, in and of itself, was enough to demonstrate to one of skill in the
art that the invention would work for its intended purpose without any testing.”); Seal-Flex, Inc. v. Athletic
Track & Court Const., 98 F.3d 1318, 1324 (Fed. Cir.
1996) (“The trier of fact must determine whether the
invention was completed and known to work for its intended purpose ... .”).6
6

Pfaff supports the “intended purpose” standard in several
ways. In a footnote, see 525 U.S. at 57 n.2, Pfaff quotes the
statement in Corona Cord Tire Co. v. Dovan Chemical Corp., 276
U.S. 358, 383 (1928), that “[a] process is reduced to practice when
it is successfully performed.” What “successfully” means in Corona is achieving the purpose of accelerating the curing of rubber, as
detailed extensively in Corona and summarized just before the
“successfully performed” language—“It was the fact that it would
work with great activity as an accelerator that was the discovery,
and that was all, and the necessary reduction to use is shown by
instances making clear that it did so work, and was a completed
discovery,” id. at 382–83 (emphasis added)—a summary that the
Court quoted in Pfaff, 525 U.S. at 66 n.12. The “intended purpose”
standard is also reflected in Pfaff’s reliance, in its rationale leading
to the “ready for patenting” standard, on the statement in Elizabeth that a public use does not include an inventor’s “bona fide effort to bring his invention to perfection, or to ascertain whether it
will answer the purpose intended,” Elizabeth, 97 U.S. at 137 (emphasis added), which was quoted in Pfaff, 525 U.S. at 64–65. That
reliance reflects the intertwining, as opposed to any clean separation, of experimental use and reduction to practice standards,
which is further reinforced in a later footnote in Pfaff, 525 U.S. at
66 n.12.

16a
Here, Medtronic relied on the August and October
2003 surgeries as reductions to practice that immediately proved that the claimed invention of the ’358 patent would work for its intended purpose. But the evidence allows a reasonable finding that Dr. Barry did
not know that his invention would work for its intended
purpose until January 2004, when he completed the follow-ups on those surgeries, which were on three patients who fairly reflected the real-world range of application of the inventive method.
We have already noted the evidence that the three
surgeries involved “the three most common[] curve
types of scoliosis” seen by surgeons, J.A. 1195, and that
it was not until January 2004 that Dr. Barry completed
the standard-practice follow-up on the third patient, at
which point the three-month acute phase of recovery
was over and the patient could stand up and walk. We
also have noted Dr. Barry’s testimony that only then
did he conclude that the surgical method would work
for its intended purpose, testimony confirmed by the
fact that only then did he write up his development
work for publication in a professional forum.
The record contains further supporting evidence.
Dr. Lenke noted the range of scoliosis conditions. J.A.
2644. Evidence from several sources confirmed that, to
evaluate the success of a spinal-deviation correction, it
is important for the surgeon to evaluate the patient after some time has elapsed following the surgery, particularly once the patient can stand. See J.A. 1159–60,
1190–95, 1372, 5406, 5417, 13016. Dr. Barry’s expert
testified that “you know nominally if you have performed a correction of the spine”—agreeing to the
“some amelioration” characterization by Medtronic’s
counsel only to that limited extent— and then immediately explained, starting in the same answer, that what

17a
happened afterward was crucial: “when the patient
stands up, there are some changes that happen over
time.” J.A. 1959–60. As a result, he added, although
“normally you can see the straightening” at the time of
the surgery, “follow-up is absolutely required to determine that it lasts,” J.A. 2906, and the follow-up appointments allowed Dr. Barry to conclude, “‘[o]kay, this
thing is holding up’ and ... ‘[n]ow I know I’ve got a
method that works,’” J.A. 2899. Both Dr. Barry and his
expert indicated that at least that amount of follow-up
is not just prudent but consistent with standards for
peer-reviewed publications reporting new techniques.
That evidence suffices for the jury to have rejected
Medtronic’s contention that Dr. Barry is charged with
knowing that the surgical technique worked for its intended purpose immediately upon completion of the
surgical operation—at least the last operation, in October 2003. The evidence is not limited to Dr. Barry’s
own testimony, as just indicated. And credibility assessments, within a broad range, are for the factfinders,
especially when they have seen the witnesses live, as
the jurors in this case did. See, e.g., Cooper v. Harris,
137 S. Ct. 1455, 1474 (2017); Perry v. New Hampshire,
565 U.S. 228, 237 (2012); Kansas v. Ventris, 556 U.S.
586, 594 n.* (2009); Reeves v. Sanderson Plumbing
Prods., Inc., 530 U.S. 133, 150 (2000); Aetna Life Ins.
Co. v. Ward, 140 U.S. 76, 88 (1891); Power Integrations,
Inc. v. Fairchild Semiconductor Int’l, Inc., 843 F.3d
1315, 1341 (Fed. Cir. 2016); Comark Comm’ns, Inc. v.
Harris Corp., 156 F.3d 1182, 1192–93 (Fed. Cir. 2000).
On the evidence in this case, the jury could readily
credit the testimony of Dr. Barry—who has extensive
medical experience and day-to-day professional responsibility for patient health and safety—about what evaluation was reasonably necessary for a prudent deter-

18a
mination that his technique worked for its intended
purpose.
To the extent that Medtronic contends, and the dissent concludes, that the patent claims compel narrowing the “intended purpose” determination to a single
surgery, or even two surgeries, assessed for success
immediately upon its completion, we disagree. The
claims do not limit the intended purpose in that way.
They are not limited to a particular type of curvature
correction. Nor do they indicate that the intended purpose is limited to observing a straightening at the completion of surgery, without regard to the correction
lasting so as to improve the patient’s health. To the
contrary, the preamble to the independent claim calls
for “the amelioration of aberrant spinal column deviation conditions,” ’358 patent, col. 6, lines 8–9, which
Medtronic argues is the intended purpose, Br. of Appellant at 30. See also ’358 patent, col. 3, lines 10–34 (specification statement of first four objects of the invention
using materially the same language). In a ruling not
disputed on appeal, the district court concluded that the
phrase would be given its “normal, customary meaning,” without further construction, and that no indefiniteness problem would result because, in this medical
context, a skilled artisan, focused on “benefit to a patient,” would understand the scope of the phrase. J.A.
33. That common-sense approach to identifying the intended purpose is rooted in the preamble claim language as well as the specification. And it is properly
understood, consistent with the specification’s background discussion of patients’ conditions beyond the
end of surgery, ’358 patent, cols. 1–2 (discussing patient
health over time), as looking past the time of a surgery
to evaluate the improvement in patients’ conditions and
allowing the withholding of judgment about the tech-

19a
nique reliably working until follow-up on a small but
representative range of “deviation conditions” surgeons
would regularly encounter.7
The “intended purpose” need not be stated in claim
limitations that define the claim scope. Even in this
case, the claim language that Medtronic treats as identifying the “intended purpose” is preamble language
that, it is undisputed here, is not limiting, i.e., it does
not state a requirement that must be proved to establish infringement. See J.A. 152 (unchallenged jury instruction). The case law cited by the dissent (at 10–11)
looks to the claims and specification as a whole for
guidance, without declaring strict requirements even as
7

The dissent suggests that at most two surgeries, not three,
were needed for the plural “conditions.” Dissent at 12–13. But
Medtronic has not meaningfully presented, let alone supported,
such a rationale for reversal. Only a single sentence in Medtronic’s opening brief, where arguments must be made, is of even possible relevance. After reciting the district court’s reliance on Dr.
Barry’s testimony that “he wanted to follow up with his patients
three months after the surgery,” citing J.A. 215, 1196, Medtronic
said: “That reasoning fails even on its own terms: three months
after surgeries on August 4 and 5, 2003, would mean reduction to
practice in early November, which is still nearly two months before the December 30, 2003 critical date.” Br. of Appellant at 30,
lines 6–9. If the dissent’s point is one about the claim preamble’s
plural language, Medtronic’s sentence says nothing about that. If
the dissent’s point is a medical-judgment point about the need for
three rather than two surgeries, Medtronic’s sentence is doubly
deficient. The testimony Medtronic says it is answering is not
about three versus two, but merely about the length of follow-up
time, as confirmed by the citations to J.A. 215, 1196. In any event,
and decisively, a medical-judgment point must be supported by
evidence, but Medtronic’s sentence is unaccompanied by any citation to the record at all. Specifically, there is no citation to evidence contrary to Dr. Barry’s testimony as a factual matter about
the need for follow-ups of three surgeries, much less evidence that
compelled a determination in Medtronic’s favor on this point.

20a
to those sources. We note that it is hardly surprising
that intended purpose need not be stated in claim limitations, given that one typical way of claiming is simply
to define the physical steps of the process, or the physical elements of a product, without building functional or
purpose language into the claim limitations at all. See,
e.g., In re Schreiber, 128 F.3d 1473, 1478 (Fed. Cir.
1997) (explaining that “[a] patent applicant is free to
recite features of an apparatus either structurally or
functionally” but that the latter choice presents distinctive risks) (emphasis added).
Case law confirms this approach. For example, in
Corona Cord, the Supreme Court, for its reduction-topractice analysis, inferred the accelerate-curing purpose from the specification. And it described the main
claims at issue (No. 1,411,231, claims 4, 8, and 12) as
stating simple process steps without any reference to
that purpose. 276 U.S. at 366.
In Manville, the patentee designed a light pole assembly that could be easily raised and lowered. 917
F.2d at 547–48. None of the claims included language
about the light pole being durable in different weather
conditions, but we determined that the patentee’s testing of the invention “under wind, cold and corrosive
atmospheric conditions” did not qualify as a public use
because “[p]rior to its testing in the winter environment, there really was no basis for confidence by the
inventor that the invention would perform as intended,
and hence no proven invention to disclose.” Id. at 550.
It was not necessary for the patent to claim durability
in order for durability to be part of the patent’s intended purpose because a certain function can be “inherent
to the purpose of an invention,” necessitating further
testing even when that inherent purpose is not claimed.
Id. at 551.

21a
Similarly, in Polara, we agreed with Polara that it
“needed to test the claimed invention at actual crosswalks of different sizes and configurations and where
the prototype would experience different weather conditions to ensure that the invention would work for its
intended purpose.” 894 F.3d at 1349. The patent in
that case was for a control system that would alert pedestrians when it was safe to cross the street. Id. at
1344. The claim language did not include limitations
about the weather conditions or the size of the crosswalk, id., but we determined that the inventor could
not know if the invention worked for its intended purpose until it had been tested in a variety of settings
where it would operate, id. at 1349. Testing an invention in practical situations was part of the determination of whether it was ready for patenting.
In Honeywell International v. Universal Avionics
Systems, we likewise recognized that an invention
might not be ready for patenting until the inventor ascertains how that invention will function in practical
circumstances. Honeywell Int’l Inc. v. Universal Avionics Systems Corp., 488 F.3d 982 (Fed. Cir. 2007).
Honeywell was developing a terrain warning system
for airplanes to address a problem in the prior art,
whose ground proximity detectors could not detect
sudden changes in terrain. Id. at 987. Honeywell’s system “compare[d] the aircraft’s position with an onboard digitized map of the earth’s terrain and manmade obstacles.” Id. at 987–88. Because there was evidence that Honeywell negotiated to sell its system to a
customer, raising an issue under the on-sale bar, we
had to determine if the invention was ready for patenting under the Pfaff test for that statutory bar. Id. at
997. We held that Honeywell’s system was not ready
for patenting before the critical date because the sale

22a
and integration of the system in real planes flown by
human pilots “were a part of Honeywell’s program to
determine that the invention worked for its intended
purpose.” Id. at 996. In short, Honeywell’s determination that the system worked for its intended purpose
was reasonably dependent on completion of a range of
tests in a variety of real-world situations in which the
system would be used.8
In TP Laboratories, Inc. v. Professional Positioners, Inc., 724 F.2d 965 (Fed. Cir. 1984), moreover, we
confirmed the common-sense proposition that, for medical procedures, follow-up appointments can be necessary to determine when an invention is performing its
intended purpose. The invention at issue was a means
of correcting irregularities in teeth. Id. at 972. We determined that the inventor could not have immediately
assessed after implantation whether the device was
working for its intended purpose; therefore, it was reasonable for the doctor to continue to follow patients and
test the invention on several patients before determining if it was working for the purpose intended. Id.
The three types of curvature addressed by Dr.
Barry’s three surgeries are analogous to the different
weather conditions in Manville and Polara, the different crosswalk dimensions in Polara, and the different
types of terrain in Honeywell. And Dr. Barry’s reliance
on follow-up appointments is analogous to the role of
follow-up appointments in TP Laboratories. We therefore affirm the determination that the claimed ’358 pa8

In the related context of experimental use, we have likewise
recognized that sometimes testing for a property can fall outside
the statutory bars even if that property is not required by a claim
limitation. See Electromotive, 417 F.3d at 1212 (first citing Manville as well as EZ Dock, 276 F.3d at 1353, then citing Seal-Flex,
98 F.3d at 1320).

23a
tent invention was not ready for patenting before the
critical date.
2
Although the foregoing discussion suffices to affirm
the rejection of Medtronic’s invalidity challenge under
§ 102(b)’s public-use bar, we think it worthwhile to address Medtronic’s contentions regarding the other element of the test of invalidity under the public-use bar:
whether the invention was “in public use.” We conclude that Medtronic also fails under this element.
Medtronic sought to establish this element by
showing that the invention was accessible to the public
and that it was commercially exploited. We conclude,
however, that the evidence permitted a reasonable
finding that Dr. Barry’s ’358 patent invention was not
accessible to the public before the critical date. We also
conclude that the asserted acts of commercial exploitation, namely, the August and October 2003 surgeries,
come within the experimental-use exception.
i
In assessing accessibility to the public, we have focused on several underlying facts: “the nature of the
activity that occurred in public; the public access to and
knowledge of the public use; [and] whether there was
any confidentiality obligation imposed on persons who
observed the use.” Dey, L.P. v. Sunovion Pharm., Inc.,
715 F.3d 1351, 1355 (Fed. Cir. 2013). Here, the alleged
public use consisted of Dr. Barry’s surgeries. But there
is substantial evidence that Dr. Barry’s surgeries were
not exposed or accessible to the public.
Unlike in the classic case of Egbert v. Lippmann,
104 U.S. 333, 335 (1881), the inventor here did not relinquish control of his invention. Dr. Barry was the on-

24a
ly one who actually practiced the invention, i.e., performed the surgery using the claim-required manipulation of linked derotators. And while other people were
present in the operating room—an anesthesiologist,
two assistant physicians, a scrub technician, a neurophysiologist, a circulating nurse, and an equipment representative—there was sufficient evidence for the jury
to find facts establishing that the technique was not accessible to the public through those people.
The evidence showed that very few of the people in
the operating room had a clear view of the surgical
field, where Dr. Barry was using his invention, because
they were either not permitted near the sterile field or
because there was a drape blocking the view. More
dispositively, although sometimes (as in Egbert) even a
limited disclosure can make an invention accessible to
the public, see Dey 715 F.3d at 1355–56, an accessibility
determination may be rejected where the evidence establishes a sufficient obligation of confidentiality, which
can be implied rather than express. Id. at 1357; Delano
Farms Co. v. Cal. Table Grape Comm’n, 778 F.3d 1243,
1249 (Fed. Cir. 2015) (“[D]emonstration of a prototype
to ‘friends and colleagues’ was not invalidating because
the evidence supported the existence of ‘a general understanding of confidentiality.’”); Invitrogen, 424 F.3d
at 1381 (“[T]his court has determined that a use before
the critical period was not public even without an express agreement of confidentiality.”). Here, the jury
could find that those in the operating room were under
an implied duty of confidentiality covering at least the
tools and techniques used. See J.A. 1311, 1167–68, 1679,
2388–89. These confidentiality understandings suffice
to support the jury’s finding of no public accessibility.

25a
ii
For commercial exploitation, as for public accessibility, Medtronic relies on the August and October surgeries. It rightly recognizes that “an inventor’s own prior
commercial use, albeit kept secret, may constitute a public use or sale under § 102(b), barring him from obtaining
a patent.” Woodland Tr. v. Flowertree Nursery, Inc.,
148 F.3d 1368, 1370 (Fed. Cir. 1998); see TP Labs., 724
F.2d at 972. And it points out, correctly, that Dr. Barry
was compensated for the three surgeries in which he
used his invention. It also cites precedents to support its
contention that a determination of commercial exploitation would not be defeated simply because Dr. Barry
charged his standard fee for the surgeries, not an extra
amount reflecting use of the inventive method. See, e.g.,
Cargill, Inc. v. Canbra Foods, Ltd., 476 F.3d 1359, 1369,
1370 (Fed. Cir. 2007); In re Kollar, 286 F.3d 1326, 1333
(2002) (citing Scaltech, Inc. v. Retec/Tetra, LLC, 269 F.3d
1321, 1328 (Fed. Cir. 2001)) (relying on “[a]ctually performing the process itself for consideration”); Application of Dybel, 524 F.2d 1393, 1401 (CCPA 1975); Application of Josserand, 188 F.2d 486, 493–94 (C.C.P.A. 1951).
But cf. TP Labs., 724 F.2d at 968, 973 (finding no commercial exploitation, in part, because “the inventor[s]
made no extra charge for fitting the three patients” with
the invention and “followed ‘their’ regular practice of
setting a fixed total fee”).
But regardless of the foregoing, the August and
October surgeries come within the experimental-use
exception. An inventor’s use, while public in one sense,
will not be considered a statutory public use if the use
was experimental. Electromotive, 417 F.3d at 1211;
City of Elizabeth, 97 U.S. at 134–35 (“The use of an invention by the inventor himself, or of any other person
under his direction, by way of experiment, and in order

26a
to bring the invention to perfection, has never been regarded as [a public] use. ... [Testing an invention in a
building even with the doors open] is not a public use,
within the meaning of the statute, so long as the inventor is engaged, in good faith, in testing its operation.
He may see cause to alter it and improve it, or not. His
experiments will reveal the fact whether any and what
alterations may be necessary.”). “[I]n the context of a
public use bar, evidence of experimental use may negate either the ‘ready for patenting’ or ‘public use’
prong.” Invitrogen, 424 F.3d at 1379–80. “A use may
be experimental if its purpose is: ‘(1) [to] test claimed
features of the invention or (2) to determine whether an
invention will work for its intended purpose—itself a
requirement of patentability.’” Polara, 894 F.3d at
1348; see Clock Spring, L.P. v. Wrapmaster, Inc., 560
F.3d 1317, 1327 (Fed. Cir. 2009).
This court has identified a host of factors that can
be relevant to assessing whether a use is experimental,
including:
(1) the necessity for public testing, (2) the
amount of control over the experiment retained
by the inventor, (3) the nature of the invention,
(4) the length of the test period, (5) whether
payment was made, (6) whether there was a
secrecy obligation, (7) whether records of the
experiment were kept, (8) who conducted the
experiment, (9) the degree of commercial exploitation during testing, (10) whether the invention reasonably requires evaluation under
actual conditions of use, (11) whether testing
was systematically performed, (12) whether
the inventor continually monitored the invention during testing, and (13) the nature of contacts made with potential customers.

27a
Id.; see Allen Eng’g Corp. v. Bartell Indus., Inc., 299
F.3d 1336, 1353 (Fed. Cir. 2002). Many of those considerations are factual, but “[e]xperimental use is a question of law to be analyzed based on the totality of the
surrounding circumstances.” Petrolite Corp. v. Baker
Hughes Inc., 96 F.3d 1423, 1426 (Fed. Cir. 1996).
In this case, the evidence—including the evidence
already discussed when addressing “ready for patenting”—shows that many of the above-recited factors
point toward a conclusion of experimental use. Dr.
Barry was not sure that the device would work on different types of scoliosis, so he performed surgeries on
the three main types. He was not confident that the
new procedure was effective until the January 2004 follow-up appointment for the third of those surgeries. In
the context of this medical patent, as we have discussed, it is reasonable, to truly determine whether a
method works, to engage in such testing for a brief time
on a small but representative range of expected circumstances of use and to rely on follow-up. See TP
Labs., 724 F.2d at 972. Dr. Barry earned no more from
the surgeries than he would have earned had he used
prior-art methods; and there is no basis for finding that
he attracted the three customers because of the new
technique—indeed, Medtronic insists that they did not
even know it was being used.9 In addition, Dr. Barry
9

Contrary to the dissent (at 21–22), this fact reduces the “degree of commercial exploitation,” Clock Spring, 560 F.3d at 1327,
in the sense at the heart of the § 102(b) policy of preventing an
overlong period of commercial exploitation of an invention.
Though earning his normal fees from the three surgeries, Dr. Barry did not “exploit” his invention as a means to attract the three
patients for those surgeries or to charge more because he used his
new technique. The jury could find that he would have gotten the
same business, and earned the same fee, even if he had not
planned to use or used the inventive process.

28a
was the only one to perform the method using his device. More generally, he did not surrender control of
the claimed invention before the critical date. J.A.
1312. He kept control through the expectation of secrecy binding the other medical professionals present
at the surgeries and the other circumstances that, as
explained above, support the jury’s determination of no
public accessibility. And other people were aware that
he was experimenting, including one doctor, one of the
nurses in the operating room, and a representative of
the DePuy medical-device firm who was helping with
the instrumentation. See J.A. 1370, 1178–79, 1733–35.
These are all facts that the jury could reasonably find;
considered together, not in isolation from each other,
they weigh in favor of a determination of experimental
use.
Medtronic relies centrally on two factors as pointing against a finding of experimental use: that Dr. Barry charged his patients for the surgeries; and that Dr.
Barry did not inform his patients that he was engaged
in testing of his particular technique. The first factor is
not by itself weighty in this case. Receipt of payment,
if sufficiently incidental to an experiment, is not automatically disqualifying. See, e.g., Int’l Tooth Crown Co.
v. Gaylord, 140 U.S. 55, 62–63 (1891); Allen, 299 F.3d at
1354. The evidence permitted the jury to find that Dr.
Barry earned no more from the surgeries than he
would have earned from using prior-art methods and
did not attract his three patients based on use of the
inventive method. On these facts, his fee can be viewed
as merely incidental to experimental work—a very limited number of tests, “reasonably necessary” to the experimental purpose, Int’l Tooth Crown, 140 U.S. at
63—if the surgeries are otherwise experimental.

29a
Medtronic must rely, therefore, on the second factor, at least when present together with the first. Both
circumstances were present in Sinskey v. Pharmacia
Ophthalmics, Inc., 982 F.2d 494 (Fed. Cir. 1992), overruled on other grounds by Pfaff, 525 U.S. 55 (1998), on
which Medtronic heavily relies. Dr. Sinskey was working on an intraocular lens that would be “implanted in
the human eye to restore or improve the visions of patients who ha[d] had their natural lens removed because of damage or disease.” Id. at 496. Between January and February 1980—before the critical date of
February 24, 1980—Dr. Sinskey implanted the lens in
eight patients. Id. at 497. He followed standard hospital procedures and was paid for the surgery. Id. We
determined that the “objective evidence ... cut[] heavily
against experimental use.” Id. at 499. We noted that
he “charged his usual surgical fee for the operation and
a standard price for the implants.” Id. And we relied
on the fact that he “did not inform the patients that
they were being treated with a ‘new’ or ‘experimental’
lens.” Id.
The facts in Sinskey differ from the facts here in
ways that we think are crucial. First, there was evidence here that not just Dr. Barry, but others, understood the surgeries to be experimental. In Sinskey,
there was no such objective confirmation; and Dr. Sinskey himself, during his deposition, had stated that he
did not consider his prior uses to be experimental. Id.
at 497–98. Second, the nature of the invention and conduct is critically different in the two cases. Whereas
Dr. Barry’s invention is of a method, Dr. Sinskey’s patent was for a physical product, i.e., a lens. Id. at 496
(“The patent is directed to an intraocular lens.”). And
when Dr. Sinskey implanted the lens in a patient, he
was surrendering control of his invention, whereas Dr.

30a
Barry did not surrender control of his invention when
he performed the derotation surgeries.
The experimental-use inquiry asks whether the inventor’s conduct would lead the “‘public’ to reasonably
believe the invention was in the public domain,” Manville, 917 F.2d at 550, and in particular whether there
has been “any use of that invention by a person other
than the inventor who is under no limitation, restriction
or obligation of secrecy to the inventor,” In re Smith,
714 F.2d 1127, 1134 (Fed. Cir. 1983). When Dr. Sinskey
surrendered control of the invention to another, without explaining that the device was experimental, the
public was entitled to believe that the device was in the
public domain. That conclusion answered the statutory
question at least in the absence of any objective evidence supporting Dr. Sinskey’s litigation claim of experimental use.
This court stated the principle in LaBounty Mfg.,
Inc. v. U.S. Int’l Trade Comm’n: “When sales are made
in an ordinary commercial environment and the goods
are placed outside the inventor’s control, an inventor’s
secretly held subjective intent to ‘experiment,’ even if
true, is unavailing without objective evidence to support the contention. Under such circumstances, the
customer at a minimum must be made aware of the experimentation.” 958 F.2d 1066, 1072 (Fed. Cir. 1992)
(citation omitted). That statement ties a demand for a
warning of experimentation to at least two premises
(which were present in Sinskey and LaBounty) beyond
the “ordinary commercial environment”—there was no
other objective evidence of experimentation, but merely a subjective inventor belief; and “the goods [were]
placed outside the inventor’s control.” Id. But both of
those premises are missing in the present case. There
is objective evidence of experimentation, not just a

31a
purely subjective intent of Dr. Barry. And there was
no loss of control—a factor that this court has stressed
“is critically important.” Lough v. Brunswick Corp., 86
F.3d 1113, 1120 (Fed. Cir. 1996). No person left the operating room with the (method) invention, and no person learned the method without an obligation of confidentiality. In these circumstances, there was no placing of the invention in the public domain that is inconsistent with experimentation.
Medtronic cites several of our opinions that contain
language that, taken out of context, might be read as
making a necessary requirement for experimental use
that the experimenter inform patients or customers of
the experimental nature of the product. But the statements should not be taken out of context. Like LaBounty, which expressly tied the inform-customers
statement to placing a product invention outside the
inventor’s control, every one of those cases in fact involved a device placed into a patient’s or customer’s
control, and out of the inventor’s control. See, e.g.,
Electromotive, 417 F.3d at 1213 (focusing on the importance of customer awareness when the invention is
put squarely in the hands and in the control of the customer); Paragon Podiatry Lab., Inc. v. KLM Labs.,
Inc., 984 F.2d 1182, 1186–87 (Fed. Cir. 1993) (discussing
the importance of communicating with customers the
experimental nature of orthotic devices placed in the
customer’s shoes); Sinskey, 982 F.2d at 499 (discussing
how Mr. Sinskey fitted the patients with a new kind of
lens); LaBounty, 958 F.2d at 1069–70, 1072 (discussing
the need to inform customers who used the scrap metal
shears that the shears were experimental); In re Dybel,
524 F.2d at 1394–95, 1401 (discussing how the inventor’s failure to disclose the experimental nature of his
“load sensing piezoelectric transducer” when he sold it

32a
to a customer was fatal to the inventor’s experimentaluse argument). We have not applied the informcustomer principle in a context, like the present, involving a method kept within the inventor’s control. The
underlying logic of the principle does not justify its extension here: explaining to patients (or their parents or
insurers) that the procedure was experimental was not
vital to keeping it from the public domain.
The experimental-use exception is properly applied
in light of the recognized mix of § 102(b) policies—
permitting experimental testing, protecting existing
public domain knowledge, limiting extension of the
statutory period of gaining revenues due to the invention, and encouraging prompt disclosure. See, e.g.,
Lough, 86 F.3d at 1119–20. Here, on all the facts the
jury could properly find, we conclude that the surgeries
fall within the experimental use exception.10
B
The second asserted § 102(b) ground of invalidity of
the asserted claims of the ’358 patent is the on-sale bar.
“A person shall be entitled to a patent unless ... the invention was ... on sale in this country, more than one
year prior to the date of the application for patent in
the United States[.]” 35 U.S.C. § 102(b) (2002). To be
rendered invalid under the on-sale bar, an invention
“must be the subject of a commercial offer for sale” in
the United States and it “must be ready for patenting.”
Pfaff, 525 U.S. at 67; see Helsinn Healthcare S.A. v.
Teva Pharms. USA, Inc., No. 17-1229, slip op. at 1, 6
(U.S. Jan. 22, 2019). But experimental use negates ap10

We discuss Medtronic’s new-trial challenge to a jury instruction regarding experimental use in our discussion of the onsale bar next.

33a
plicability of the on-sale bar, as it does the public-use
bar. Polara, 894 F.3d at 1348.
We have already concluded, in discussing the public-use bar, that the ’358 patent’s invention was not
ready for patenting before the critical date and that the
August and October 2003 surgeries come within the
experimental-use exception. Those conclusions leave
only one aspect of Medtronic’s on-sale-bar challenge
that requires discussion.11
Medtronic argues on one ground for a new trial regarding experimental use. It challenges a jury instruction that informed the jury that “there is a difference between ‘experimental use’ in the context of patent law
and the way that the word ‘experiment’ is used in the
context of medicine.” J.A. 160. We reject this challenge.
Although underlying questions of patent law are
matters of this court’s law, we generally apply regionalcircuit law on the overall standards for setting aside a
verdict because of asserted error in jury instructions.
See Kinetic Concepts, Inc. v. Blue Sky Med. Grp., Inc.,
554 F.3d 1010, 1021 (Fed. Cir. 2009); Voda v. Cordis
Corp., 536 F.3d 1311, 1328 (Fed. Cir. 2008). The Fifth
Circuit asks whether “the ‘charge as a whole leaves [the
court] with substantial and ineradicable doubt whether
the jury [was] properly guided in its deliberations’ and
the challenged instructions, separately or collectively,
‘affected the outcome of the case.’” Janvey v. Dillon
Gage, Inc. of Dallas, 856 F.3d 377, 388 (5th Cir. 2017).

11

We need not discuss whether certain pre-critical-date
communications between Dr. Barry and two device makers,
DePuy and SpineVision, would constitute offers for sale under
“traditional contract law principles.” Allen Eng’g, 299 F.3d at
1352.

34a
The district court’s instruction was not an abuse of
discretion. In light of Medtronic’s suggestions regarding the impropriety of medical experimentation without
informed consent, it was reasonable for the court to address potential confusion about borrowing, for § 102(b),
legal standards that govern experiments in quite different legal contexts. And what the court said on the
subject was both modest and consistent with our holdings. This court has explained, specifically with regard
to testing, that legal standards in other contexts do not
control in the patent-validity context. Pennwalt Corp.
v. Akzona Inc., 740 F.2d 1573, 1580 (Fed. Cir. 1984)
(“The fact that a sale or use occurs under a regulatory
testing procedure, such as a FIFRA15 experimental
use permit, does not make such uses or sales per se experimental for purposes of 35 U.S.C. § 102(b).” (footnote omitted)); see also Helsinn, 855 F.3d at 1373 (explaining that the standards for FDA experimentation
are different from patent law’s “ready for patenting”
standards); Clock Spring, 560 F.3d at 1328 (explaining
that actions and regulations by the Department of
Transportation did not impact the analysis of whether
the inventor’s use was experimental). The district
court’s jury instruction in this case reasonably made
that point to reduce the potential for a confused application of § 102(b)’s standards.
C
Medtronic’s final invalidity challenge, applicable to
both patents at issue here, is that Dr. Lenke invented
the claimed matter before Dr. Barry, rendering the asserted claims invalid under 35 U.S.C. § 102(g). “A person shall be entitled to a patent unless ... before such
person’s invention thereof, the invention was made in
this country by another inventor who had not abandoned, suppressed, or concealed it.”
35 U.S.C.

35a
§ 102(g)(2) (2002). “[P]riority of invention goes to the
first party to reduce an invention to practice unless the
other party can show that it was the first to conceive
the invention and that it exercised reasonable diligence
in later reducing that invention to practice.” Z4 Techs.,
507 F.3d at 1352.
Reduction to practice requires that the inventor
prove that “(1) he constructed an embodiment or performed a process that met all the limitations ... and (2)
he determined that the invention would work for its intended purpose.” Id. Medtronic had the burden of
showing by clear and convincing evidence that Dr.
Lenke reduced to practice first. See id. Reduction to
practice is a mixed question of law and fact. Id. “[W]e
must sustain the jury’s conclusion unless the jury was
not presented with substantial evidence to support any
set of implicit findings sufficient under the law to arrive
at its conclusion.” Eli Lilly & Co. v. Aradigm Corp.,
376 F.3d 1352, 1362 (Fed.Cir.2004).
We uphold the jury’s rejection of Medtronic’s
§ 102(g) challenge because there is substantial evidence
to support a finding that Dr. Lenke did not reduce the
claimed inventions to practice before February 2006,
after Dr. Barry did so (for both patents at issue here).
Weaknesses in Medtronic’s evidence, including credibility issues, allowed the jury to reject Medtronic’s assertion that Dr. Lenke, having worked on linked derotators since 2002, reduced the Barry-claimed inventions
to practice before Dr. Barry did so in 2004. See Barry,
230 F. Supp. 3d at 659–63. At the same time, substantial evidence supports Dr. Barry’s account of his invention and reduction to practice before February 9, 2006,
including his 2003 surgeries and follow-up appointments, his securing of assistance from device makers,
and his continued work in 2004.

36a
D
Medtronic asserted in the district court that the
two patents are unenforceable because Dr. Barry engaged in inequitable conduct during patent prosecution
in the PTO. The district court found no such inequitable conduct. We affirm that determination.
“Inequitable conduct is an equitable issue committed to the discretion of the trial court and is, therefore,
reviewed by this court under an abuse of discretion
standard.” Energy Heating, LLC v. Heat On-The-Fly,
LLC, 889 F.3d 1291, 1299 (Fed. Cir. 2018). Inequitable
conduct here requires a showing of both materiality
and intent. Therasense, Inc. v. Becton, Dickinson &
Co., 649 F.3d 1276, 1290 (Fed. Cir. 2011) (en banc).
“[W]e review the district court’s findings of materiality
and intent for clear error.” Regeneron Pharm., Inc. v.
Merus N.V., 864 F.3d 1343, 1351 (Fed. Cir. 2017) (quotation marks omitted).
The basis of the charge of inequitable conduct is
Figure 6 of both patents, which Dr. Barry initially described incorrectly. Both patents describe Figure 6 as
displaying “a three frame x-ray view showing ‘before
and after’ views of a scoliosis patient who was treated
in an investigational procedure using the system and
method of the present invention.” ’358 patent, col. 4,
lines 38–41; ’121 patent, col. 4, lines 44–47. In January
2008, during the initial prosecution, the examiner requested clearer drawings than those originally submitted, including the x-rays that make up Figure 6. J.A.
5077 (“Figures 1-4 and 6-7 are objected [to] as they are
unclear and do not distinctly show features which are
pertinent to the understanding of the disclosed device.
New corrected drawings are required.”). In September
2008, Dr. Barry’s counsel submitted a different set of x-

37a
rays for Figure 6. The evidence in this case indicates
that counsel was not aware that, contrary to the description, the subject of the submitted x-rays actually
was not a patient treated with the inventive methods,
but instead was a patient treated on June 23, 2003, using a method that was not the invention claimed in the
’358 patent (or the ’121 patent’s follow-on invention).
In March 2016, Dr. Barry sought to correct the description during this litigation. For the ’121 patent, the
PTO allowed the correction, issuing a Certificate of
Correction in August 2016. Dr. Barry simultaneously
requested the same correction of the ’358 patent, but
the ’358 patent was the subject of an inter partes review proceeding at the time, so he withdrew the request in April 2016. Dr. Barry then filed a motion to
correct under 37 C.F.R. § 1.323. The Patent Trial and
Appeal Board denied the motion, expressing uncertainty about why the mistake had happened and why Dr.
Barry had taken as long as he did to ask for the correction. When Dr. Barry again requested a certificate of
correction from the PTO on May 25, 2017, the PTO
granted the request and issued a Certificate of Correction in June 2017.
The district court found that there was no intent to
deceive the PTO on the part of Dr. Barry and his counsel. Inequitable Conduct Op., 245 F. Supp. 3d at 804–
06. The district court found that both Dr. Barry and his
counsel were credible in explaining why the errors occurred, without any intent to deceive, and why the errors were not discovered until this litigation. Id. We
see no clear error in the court’s finding that the intent
required for inequitable conduct is absent here. We
need not reach the issue of materiality.

38a
E
Medtronic challenges the jury’s finding that Medtronic directly infringed the patents and that it induced
others to infringe. “Whoever actively induces infringement of a patent shall be liable as an infringer.”
35 U.S.C. § 271(b). “[I]nducement liability may arise if,
but only if, [there is] ... direct infringement.” Limelight
Networks, Inc. v. Akamai Techs., Inc., 134 S. Ct. 2111,
2117 (2014) (internal quotation marks omitted). “The
patentee must also show that the alleged infringer possessed the requisite intent to induce infringement,
which we have held requires that the alleged infringer
knew or should have known his actions would induce
actual infringements.” Eli Lilly & Co. v. Teva Parenteral Medicines, Inc., 845 F.3d 1357, 1364 (Fed. Cir.
2017) (internal quotation marks omitted). “Circumstantial evidence can support a finding of specific intent
to induce infringement.” Vanda Pharm. Inc. v. W.Ward Pharm. Int’l Ltd., 887 F.3d 1117, 1129 (Fed. Cir.
2018); Warsaw Orthopedic, Inc. v. NuVasive, Inc., 824
F.3d 1344, 1347 (Fed. Cir. 2016). “[I]nducement can be
found where there is [e]vidence of active steps taken to
encourage direct infringement, which can in turn be
found in advertising an infringing use or instructing
how to engage in an infringing use.” Vanda, 887 F.3d
at 1129 (internal quotation marks omitted). Direct infringement and inducement are issues of fact. Sanofi v.
Watson Labs., Inc., 875 F.3d 636, 645 (Fed. Cir. 2017);
01 Communique Lab., Inc. v. LogMeIn, Inc., 687 F.3d
1292, 1296 (Fed. Cir. 2012).
1
Substantial evidence supports the jury’s finding of
underlying direct infringement by surgeons. Dr. Barry
presented the results of a survey—the Neal Survey—

39a
that asked spine surgeons questions about the spine
derotation surgeries they had performed in the last two
years. See J.A. 5449–57.12 In particular, the survey
asked doctors whether they had performed surgeries
that included the following steps:
Insert 2 spinal rods through pedicle screws on
multiple vertebrae (at any stage of the procedure)[.] Attach derotators to pedicle screws on
2 or more vertebrae. Mechanically link 2 or
more derotators. Link 2 or more different derotators attached to screws in a second group of
2 or more vertebrae (the 2 groups may have
vertebrae in common). Both sets of linked derotators are moved simultaneously[.] Engage
pedicle screw locking mechanism to hold vertebrae in derotated position[.]
J.A. 5454.
Medtronic argues insufficiency, or even inadmissibility, of the Neal Survey because it did not specifically
name the accused Medtronic VCM kit in asking doctors
what they did. We do not think, however, that Medtronic has shown error in the admission of or reliance
on the survey as reasonably indicating the amount of
activity by surgeons that would infringe.
The steps recited in the survey’s inquiry track the
claim language in the patent. The patent claim language includes: “implanting ... each pedicle screw in a
pedicle region of each ... first group of multiple vertebrae of a spinal column,” ’358 patent, col. 6, lines 22–23;
12

The parties have not specified precisely when the Neal
Survey was conducted. But the district court said that it was not
completed when Dr. Barry filed a motion concerning non-VCM
products, a motion filed in late February 2016. J.A. 15168 n.8.

40a
“a first group of pedicle screw engagement members
which are mechanically linked with said first handle
means” of the “first pedicle screw cluster derotation
tool, id., col. 6, lines 13–17; “in a single motion simultaneously rotating said vertebrae of said first group of
multiple vertebrae,” id., col. 6, lines 33–35; and “actuating said spinal rod engagement means to secure said
vertebrae in their respective and relative positions,”
id., col. 6, lines 53–55. On the record before us, we cannot say, as a matter of law, that a survey like this one
had to itemize every single claim element: some claim
elements might, for example, be essentially universal
accompaniments of the steps included in the questions,
making their inclusion pointlessly complicating. To establish the inadequacy of the survey, Medtronic had to
show with specificity that the absence of some inquiry
made the questions asked and answers given an unreliable indicator of the occurrence of activity that constitutes direct infringement. It has not done so. And if
the identification of substantive steps in the survey was
adequate, the omission of the “VCM” name makes no
difference.
The Neal Survey asked not only about specific
steps but also about surgeons’ use of Medtronic’s Horizon System. J.A. 5451. According to Dr. Barry’s expert, moreover, any use of the Horizon System to derotate a spine would have used the VCM kit. The jury
could accept that testimony. Although Medtronic has
argued that use of certain tube derotators might not
infringe yet would have been captured by the Neal
Survey about what surgeons actually used, the jury
could reject that contention. There was evidence indicating that such derotators would not have worked as
the claims require. Medtronic has also argued, in this
court and in its post-trial motion, that the Neal Survey

41a
would have captured use of its SmartLink product,
which it says would be noninfringing; but all evidence
of SmartLink was excluded from the trial, with
Medronic’s agreement, so such evidence cannot support
Medtronic’s challenge to the verdict. Barry, 230 F.
Supp. 3d at 642 n.9.
The Neal Survey is not the only evidence of direct
infringement. The jury could find that Dr. Lenke himself used the accused VCM kit. Dr. Lenke testified that
when he performed derotations, the technique involving the VCM kit “would be the technique ... that [he]
would use” and continued to use after 2010 (the year
the ’358 patent issued). J.A. 2706–08. He also continued to educate other surgeons on this technique after
2010.
Medtronic also makes an argument directed specifically to infringement of the ’121 patent. It points to
the requirement, stated in that patent’s claim 2 as
quoted above, of a cross-linking member connecting
two handle means, each of which links three screw engagement members (for simultaneous manipulation).
Medtronic contends that there was insufficient evidence, from the Neal Survey or otherwise, of surgeons’
using such a three-by-three linking step with the VCM
kit. We disagree. The Neal Survey asked about surgeons’ using “6 or more derotators linked by lateral and
transverse connections and moved simultaneously,”
J.A. 5454, and Dr. Barry’s expert testified that the
three-by-three linking step would be carried out by
surgeons following the instructions on the VCM kit’s
lid. See Barry, 230 F. Supp. 3d at 644–45.
In sum, the jury could properly find that there was
direct infringement of both patents at issue here, of a
scope indicated by the Neal Survey.

42a
2
Substantial evidence also supports the finding that
Medtronic induced infringement after issuance of Dr.
Barry’s two patents. On appeal, Medtronic focuses on
the timing of its inducing actions to contend otherwise,
arguing that there was insufficient proof of inducement
after the patents’ issuance. We reject the contention,
agreeing with the district court. See Barry, 230 F.
Supp. 3d at 245–46.
VCM was on the market four years before the ’358
patent issued and seven years before the ’121 patent
issued. The Neal Survey asked whether surgeons “received any information or training (formal or informal)
regarding derotation of multiple vertebrae using linked
derotators from that source,” without asking the dates
of the information received. J.A. 5455. There was extensive evidence about the training materials provided
by Medtronic and its sales representatives. Importantly, every VCM kit that went out had instructions on it,
and the Medtronic sales force was constantly teaching
surgeons the nuances of and techniques for using the
devices. Dr. Lenke also testified that he was still instructing surgeons on using the VCM kit after 2010.
On the evidence of record, we conclude, the jury could
permissibly find inducement in the period after patenting.
F
Medtronic challenges the jury’s damages award.
But the challenge is dependent on our accepting Medtronic’s challenges to use of the Neal Survey to establish infringement, which we have rejected. We add
here only that the district court carefully considered
Medtronic’s challenges to the methodology of the Neal
Survey and denied Medtronic’s motion to exclude the

43a
survey, concluding that Medtronic’s criticisms went to
the weight of the evidence, not its relevance and reliability. Barry, 230 F. Supp. 3d at 641. We see no abuse
of discretion in that evidentiary ruling.
III
For the foregoing reasons, we reject Medtronic’s
challenges on appeal and affirm the judgment of the
district court.
Costs to Dr. Barry.
AFFIRMED

44a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2017-2463
MARK A. BARRY,
Plaintiff-Appellee,
v.
MEDTRONIC, INC.,
Defendant-Appellant.
Appeal from the United States District Court for
the Eastern District of Texas in No. 1:14-cv-00104-RC,
Chief Judge Ron Clark.
PROST, Chief Judge, dissenting in part.
I join the majority’s opinion regarding the ’121 patent. I respectfully dissent, however, from its conclusion regarding the ’358 patent.
The facts are simple. More than one year before filing for the ’358 patent, Dr. Barry successfully performed his claimed surgical method on three different
patients, charging each his normal fee. Dr. Barry’s
method was thus prima facie “on sale” or in “public
use” before the critical date under 35 U.S.C. § 102(b).1
The majority concludes otherwise based on Dr.
Barry’s litigation testimony. Dr. Barry testified that,
even though he charged his patients and successfully
performed the claimed method three times before the
critical date, he was not truly satisfied with his method
1

sion.

All citations to sections of Title 35 are to their pre-AIA ver-

45a
until a follow-up after the third surgery—a follow-up
that occurred just after the critical date. Never mind
that Dr. Barry appreciated that his method worked as
of a surgery’s completion. And never mind that successful follow-ups for the first two surgeries occurred
before the critical date. Dr. Barry testified that he
needed that third follow-up to be satisfied. On this basis, the majority concludes Medtronic failed to show
that the asserted claims of the ’358 patent are invalid
under § 102(b)’s statutory bars.
Both the Supreme Court’s and our precedent require invalidating the asserted claims under § 102(b) as a
matter of law on this record. For this reason, I dissent.
I
A
Whether an invalidating sale or public use has occurred is a question of law reviewed de novo, based on
underlying facts reviewed for substantial evidence following a jury verdict. Leader Techs., Inc. v. Facebook,
Inc., 678 F.3d 1300, 1305 (Fed. Cir. 2012).
The § 102(b) on-sale bar applies when, before the
critical date, the claimed invention was (1) the subject
of a commercial offer for sale; and (2) ready for patenting. Pfaff v. Wells Elecs., Inc., 525 U.S. 55, 67 (1998).2
2

I focus the rest of my discussion on § 102(b)’s on-sale bar as
opposed to its public-use bar, though my ultimate conclusion is the
same for each. The public-use bar applies when, before the critical
date, the claimed invention was (1) in public use; and (2) ready for
patenting. Invitrogen Corp. v. Biocrest Mfg., L.P., 424 F.3d 1374,
1379 (Fed. Cir. 2005). The ready-for-patenting prong is the same
for both bars, and the public-use prong is met if the purported use
was accessible to the public or commercially exploited. Id. at
1379–80. The claimed inventions were commercially exploited for
essentially the same reasons that they were the subject of a com-

46a
Medtronic needed to prove the facts underlying these
two conditions by clear and convincing evidence. See,
e.g., Allen Eng’g Corp. v. Bartell Indus., Inc., 299 F.3d
1336, 1352 (Fed. Cir. 2002).
This case mostly concerns Pfaff’s ready-forpatenting prong. This prong may be satisfied “in at
least two ways”: by proof of reduction to practice before the critical date; or by proof that before the critical
date the inventor had prepared enabling drawings or
other descriptions. 525 U.S. at 67–68. And to establish
a reduction to practice, we have held that a patent challenger must show that the inventor “(1) constructed an
embodiment or performed a process that met all the
[claim] limitations and (2) determined that the invention would work for its intended purpose.” In re
Omeprazole Patent Litig., 536 F.3d 1361, 1373 (Fed.
Cir. 2008) (internal quotation marks omitted) (quoting
z4 Techs., Inc. v. Microsoft Corp., 507 F.3d 1340, 1352
(Fed. Cir. 2007)).
Even if a patent challenger makes out a prima facie case of the on-sale bar, a patentee may negate the
bar’s application with evidence that the sale was primarily for experimental purposes. See Electromotive
Div. of Gen. Motors Corp. v. Transp. Sys. Div. of Gen.
Elec. Co., 417 F.3d 1203, 1210 (Fed. Cir. 2005) (proceeding in a “stepwise fashion,” analyzing first whether
there were any pre-critical-date sales and then whether
any such sales were negated by experimentation);
Netscape Commc’ns Corp. v. Konrad, 295 F.3d 1315,
1321 (Fed. Cir. 2002) (“To establish that an otherwise
public use does not run afoul of [§] 102(b), it must be
mercial sale or offer for sale. I see no material difference between
the two bars in this case or in the way that evidence of experimental use would affect their application.

47a
shown that the activity was substantially for purposes
of experiment.” (internal quotation marks omitted));
TP Labs., Inc. v. Prof’l Positioners, Inc., 724 F.2d 965,
971–72 (Fed. Cir. 1984).
B
The majority provides two bases for its conclusion
that the asserted claims are not invalid under § 102(b)
and Pfaff. Majority Op. 11–12. First, it says that the
claimed methods were not ready for patenting before
the critical date because they did not satisfy this court’s
reduction-to-practice test before that date. Majority
Op. 13–18. Second, it says that the three pre-criticaldate surgeries were for experimental purposes, thus
negating application of a § 102(b) bar. Majority Op. 24–
31.
Part II below concerns how Medtronic met Pfaff’s
two-prong test. Specifically, Part II.A shows that
Pfaff’s commercial-sale prong was satisfied. Part II.B
shows that Pfaff’s ready-for-patenting prong was satisfied because our reduction-to-practice test was satisfied. Part II.C shows that, regardless of whether the
claimed methods were “reduced to practice,” they were
ready for patenting.
Part III concerns how the majority misapplies our
reduction-to-practice test. This part also addresses a
confusing aspect of our case law that the majority’s
opinion perpetuates. Part IV concerns the experimental-use doctrine.
II
The key facts are undisputed. The ’358 patent’s
critical date is December 30, 2003. Dr. Barry performed three pre-critical-date surgeries that practiced
all the limitations of the asserted ’358 patent claims.

48a
These surgeries occurred on August 4, 2003; August 5,
2003; and October 14, 2003. Dr. Barry charged his
normal fee for them.
A
The foregoing evidence establishes Pfaff’s commercial-sale prong for each of the three pre-criticaldate surgeries. See Plumtree Software, Inc. v. Datamize, LLC, 473 F.3d 1152, 1163 (Fed. Cir. 2006)
(“[P]erforming the patented method for commercial
purposes before the critical date constitutes a sale under § 102(b).”); In re Kollar, 286 F.3d 1326, 1333 (Fed.
Cir. 2002) (“[P]erforming the process itself for consideration would ... trigger the application of § 102(b).”).
Therefore, absent sufficient evidence that these surgeries were done for primarily experimental purposes,
they would satisfy the first Pfaff prong as a matter of
law.
B
Medtronic also established that the inventions were
reduced to practice no later than the second surgery’s
completion, and therefore were ready for patenting by
then. Pfaff, 525 U.S. at 67–68 (identifying reduction to
practice as a basis for establishing the ready-forpatenting prong).
Reduction to practice is a question of law we review de novo. DSL Dynamic Scis. Ltd. v. Union
Switch & Signal, Inc., 928 F.2d 1122, 1125 (Fed. Cir.
1991). To establish a reduction to practice, we have
held that a patent challenger must show that the inventor (1) constructed an embodiment or performed a process that met all the claim limitations and (2) determined that the invention would work for its intended
purpose. In re Omeprazole, 536 F.3d at 1373. It is un-

49a
disputed that each of the three pre-critical-date surgeries met all the claim limitations. The only question is
when Dr. Barry determined that his methods worked
for their intended purpose.
The claims state the inventions’ intended purpose:
“the amelioration of aberrant spinal column deviation
conditions.” ’358 patent col. 6 ll. 7–8. Dr. Barry testified that such amelioration happened during surgery:
Q. And there is a term that is used in the patent that is not a term that is familiar to me as
a layperson, but it’s “amelioration.” Does that
mean correction?
A. Yes.
Q. Okay. So, it happens right there in the operating room, on the spot, true?
A. The surgical correction of the rotated vertebrae back to the midline, yeah, happens with
that maneuver. Yes.
J.A. 1369–70. Dr. Barry’s expert testified similarly.
J.A. 1960 (“Q. And at least for the vertebrae, that derotation problem, you’ll know if there was at least some
amelioration when the surgery is over. A. Fair
enough.”)
Once this amelioration happened, Dr. Barry secured the derotated vertebrae in place with rods and
screws, as the claims require:
Q. And can you explain for the jury, please,
what happens once you get the vertebrae derotated into the proper alignment? How do you
hold it there?
A. Well, as mentioned, you have screws up and
down throughout that area of that curve. Once

50a
those vertebrae are rotated back into the midline and you have the correction that you are
happy with, you are comfortable with, you lock
down the screws to the two rods. ... So, that’s at
the end of the procedure where all of the implants—screws, rods, and the setscrews—are
all tightened down, locked down.
J.A. 1158–59 (emphasis added); see ’358 patent col. 6 ll.
52–56.
Thus, by no later than the second surgery’s completion, Dr. Barry appreciated that his invention worked
for its intended purpose—to ameliorate aberrant spinal
column deviation conditions.3 His inventions were reduced to practice by then as a matter of law.
C
Though sufficient, reduction to practice is not necessary for § 102(b)’s on-sale bar to apply. Pfaff, 525
U.S. at 66 (concluding that it is unnecessary “to engraft
a reduction to practice element into the meaning of the
term ‘invention’ as used in § 102(b)”). Rather, the
standard is whether the invention was “ready for patenting”—that is, whether the inventor “could have obtained a patent.” Id. at 67–68; see id. at 62–63.
The record demonstrates that, regardless of when
his inventions were reduced to practice, Dr. Barry
could have obtained a patent before the critical date.
3

Because the claims’ preamble refers to the amelioration of
“aberrant spinal column deviation conditions” (plural), and because Dr. Barry testified that his patients had different types of
conditions, I place the time of reduction to practice at the completion of the second surgery—not the first. Given that both of the
first two surgeries (and their respective follow-ups) occurred before the critical date, the difference is immaterial here.

51a
By August 5, 2003, he had already performed the
claimed methods on what he contends were two different types of aberrant spinal column deviation conditions. There was at least some amelioration of those
conditions by the end of the surgeries. At this point,
Dr. Barry could have satisfied the enablement and
written-description requirements of § 112 and credibly
claimed utility under § 101. See Alcon Research Ltd. v.
Barr Labs., Inc., 745 F.3d 1180, 1189–90 (Fed. Cir.
2014) (noting that “a patent does not need to guarantee
that the invention works for a claim to be enabled” and
that “[t]here is no requirement that the disclosure contain either examples or an actual reduction to practice”
(internal quotation marks omitted)); CFMT, Inc. v.
Yieldup Int’l Corp., 349 F.3d 1333, 1339 (Fed. Cir. 2003)
(describing the relationship between enablement and
utility and concluding that, “[b]ecause the preamble
term ‘cleaning’ means only ‘removal of contaminants,’
not removal of all contaminants or removal of contaminants according to [a] commercial standard, the inventor shows utility and enables the invention by disclosing ‘removal of contaminants’”).
By focusing only on reduction to practice, the majority misses Pfaff’s point—readiness for patenting is
broader than reduction to practice and is meant to answer whether the inventor could have obtained a patent on his or her invention. This court captured a similar insight even before Pfaff. We noted that “the
thrust of the on-sale inquiry is whether the inventor
thought he had a product which could be and was offered to customers, not whether he could prevail under
the technicalities of reduction to practice appropriate to
determining priority of invention under interference
law.” Paragon Podiatry Lab., Inc. v.KLM Labs., Inc.,
984 F.2d 1182, 1187 n.5 (Fed. Cir. 1993); cf. Pfaff, 525

52a
U.S. at 60–61 (observing that neither § 100 nor § 101
mentions “reduction to practice” and that the statute’s
only specific reference to that term is in § 102(g), which
concerns resolving priority disputes between two competing claimants to a patent).
The same insights apply here. Regardless of
whether Dr. Barry satisfied our reduction-to-practice
test as of the second surgery’s completion, his inventions were ready for patenting by then.
III
The majority disagrees that Dr. Barry’s inventions
were ready for patenting before the critical date. The
concept of an “intended purpose” is central to the majority’s analysis and conclusion.
First, the majority reasons that Dr. Barry’s
claimed methods were not ready for patenting until
they were reduced to practice, and that they were not
reduced to practice until Dr. Barry knew that they
would work for their intended purpose. The majority
accepts that Dr. Barry needed the third follow-up to
determine that the inventions worked for their intended purpose. Majority Op. 13; see id. at 14–19. This is
error, because the majority asks more of the “intended
purpose” than what the claims and specification define
it to be.
Second, the majority finds support in cases where
we have discussed “intended purpose” in the context of
the experimental-use doctrine. But that doctrine contemplates a broader conception of “intended purpose”
than what is required to show reduction to practice.
Statements in our case law that loosely refer to an “intended purpose” are, regrettably, confusing. But the
majority perpetuates the confusion in reaching its re-

53a
sult. And its approach threatens to render superfluous
a substantial body of law starting with the Supreme
Court’s seminal City of Elizabeth case.
I discuss these two problems in turn.
A
To know whether and when the inventor determined that the invention would work for its intended
purpose for reduction to practice, we must first know
what the “intended purpose” is. Although the testing
necessary to determine whether an invention would
work for its intended purpose is a factual question, z4
Techs., 507 F.3d at 1352, defining the intended purpose
is a legal question based on the claims and specification,
see Manning v. Paradis, 296 F.3d 1098, 1102–04 (Fed.
Cir. 2002).
Here, the claims define the intended purpose as
“the amelioration of aberrant spinal column deviation
conditions.” ’358 patent col. 6 ll. 7–8. As both Dr. Barry
and his expert testified, that amelioration is apparent
and appreciated during a surgery when the surgeon rotates and straightens the vertebrae and then locks
them into place. See supra Part II.B. That testimony,
along with the undisputed fact that the pre-critical-date
surgeries met all the claim limitations, should end the
reduction-to-practice inquiry.
To conclude otherwise, the majority must conceive
of a more exacting intended purpose—one that, based
on Dr. Barry’s testimony, includes clearing a follow-up
at a certain time and working across three different
types of conditions (not just two). In doing so, the majority legally errs by looking beyond the claims and the
specification to effectively define the “intended pur-

54a
pose” for reduction to practice.4 Conner v. Joris, 241
F.2d 944, 947 (CCPA 1957) (“In going beyond both the
[claim] and the specification to glean [an inventor’s] intended purpose the [B]oard has gone far beyond any
position supported by the cases cited or any that we
have been able to find.”); see Land v. Regan, 342 F.2d
92, 98–99 (CCPA 1965) (criticizing going beyond the
claims and specification to glean an invention’s intended purpose); cf. z4 Techs., 507 F.3d at 1352 (finding error in the district court’s definition of intended purpose
as “stop[ping] piracy” because the claim language indicated a purpose only of reducing piracy).
To be sure, the majority suggests that the ’358 patent describes follow-up time and the three-surgery requirement as part of the inventions’ intended purpose.
See Majority Op. 18–19 (referencing a “common-sense
approach to identifying the intended purpose [that] is
rooted in the preamble claim language as well as the
specification”). I am unpersuaded.
The claims say nothing about follow-up time. They
say, “the amelioration of aberrant spinal column deviation conditions.” ’358 patent col. 6 ll. 7–8. The district
court concluded that “amelioration” would be accorded
its customary meaning, which a person of ordinary skill
4

The majority also references Dr. Barry’s expert’s testimony
as supporting Dr. Barry. Majority Op. 16–17. But much of that
testimony concerns what the expert thought Dr. Barry was thinking, J.A. 2899, which adds very little to an objective, patent-based
assessment of what the inventions’ intended purpose is. And, insofar as the majority relies on standards for peer-reviewed publications as they relate to follow-up time, Majority Op. 17, I am not
convinced that those standards are, or should be, relevant to reduction to practice or readiness for patenting under the U.S. patent laws. For instance, Dr. Barry’s expert testified that such
publications require two years’ follow-up time, J.A. 2900, but Dr.
Barry successfully filed for a patent well before that.

55a
in the art would understand as “to improve.” J.A. 33–
34. Both Dr. Barry and his expert testified that the aberrant spinal column deviation conditions were ameliorated, or improved, as of a surgery’s completion. And
Dr. Barry testified that he appreciated as much at the
time. Supra Part II.B.
The specification also says nothing relating followup time to the inventions’ intended purpose. The majority references two portions of the specification in its
discussion, but neither supports its position. First, it
cites the background section. Majority Op. 18–19 (citing ’358 patent cols. 1–2). This section discusses priorart treatment regimens and problems from untreated
scoliosis; it says nothing about follow-up criteria as it
relates to the intended purpose of Dr. Barry’s inventions. Second, the majority refers to the four “objects
of the invention” articulated in the summary of the invention. Majority Op. 18 (citing ’358 patent col. 3 ll. 10–
34). Again, these objectives say nothing about followup time. Quite the contrary; they describe what happens in the operating room—for example, (1) “facilitat[ing] the application of significant derotational forces to individual vertebra, with substantially reduced
risk for fracture thereof upon application of such forces,” ’358 patent col. 3 ll. 23–25 (emphasis added); and (2)
“facilitat[ing] the application of forces to vertebrae of
affected spinal column segments en bloc, thereby distributing otherwise potentially injurious forces in a
manner for safely achieving over-all spinal column correction or derotation,” id. at col. 3 ll. 30–33 (emphasis
added).
Nor does the intended purpose contemplate working across three different types of curvatures, as opposed to just two. The claims’ body requires amelioration of “an aberrant spinal column deviation condition,”

56a
’358 patent col. 6 ll. 35–36 (emphasis added), and the
preamble mentions only “amelioration of aberrant spinal column deviation conditions,” id. at col. 6 ll. 7–8.
The majority identifies nothing in the patent itself—
whether in the claims or specification—that explains
how working across three, not just two, curvatures is
part of the inventions’ intended purpose. Therefore,
even if I were to accept that the ’358 patent’s language
made follow-up time relevant to the inventions’ intended purpose, I would still fail to understand the legal
relevance of Dr. Barry’s alleged need for the third surgery’s follow-up, as opposed to just the first two, to determine whether his invention worked for its intended
purpose (so as to establish reduction to practice).
The majority suggests that Medtronic “has not
meaningfully presented, let alone supported” the argument that follow-ups on two surgeries (covering two
conditions) were enough to establish reduction to practice. Majority Op. 19 n.7. I disagree. The majority
acknowledges that Medtronic’s opening brief argued
that the two follow-ups from the August surgeries
were enough. Id. Dr. Barry responded that he needed
to test his invention on “different anatomies” and that
it was only after the third follow up that he knew
whether he had successfully treated the “three most
common[] curve types.” Dr. Barry’s Resp. Br. 25–26
(alteration in original). Medtronic replied:
[A]n invention works for its intended purpose
as long as there is some demonstration of the
workability or utility of the claimed invention.
A demonstration of its use in two patients certainly qualifies. After all, the claims are not
confined to methods that ameliorate every patient’s spinal deviation condition.

57a
Medtronic’s Reply Br. 8 (citation and internal quotation
marks omitted); see id. at 8–9 (citing Dr. Barry’s testimony regarding the surgeries, their follow-ups, and the
patients’ curve types). This straightforward argument
is before us. Not even Dr. Barry has urged otherwise.
If Dr. Barry wanted to claim or describe his inventions’ intended purpose differently—for example, with
reference to satisfying a standard of care that contemplates a certain amount of follow-up time, or versatility
across more than two curvature types—he could have
done so. But his claims and specification say nothing of
the sort. Given his testimony that before the critical
date he practiced his invention (as he later claimed it)
and achieved its purpose (as he later described it), his
invention was reduced to practice before then as a matter of law.
B
To find Dr. Barry’s inventions not ready for patenting, the majority analogizes to several cases it says
support its view of the inventions’ intended purpose.
Majority Op. 20–22. Its analysis of Pfaff’s ready-forpatenting prong reflects some confusion in our case law
regarding the relationship among reduction to practice,
an invention’s intended purpose, and the experimentaluse doctrine.
Again, reduction to practice requires proof that the
inventor determined that the invention would work for
its intended purpose. In re Omeprazole, 536 F.3d at
1373. Therefore, showing readiness for patenting (at
least, via reduction to practice) requires proof that the
inventor determined that the invention would work for
its intended purpose. Yet we have also said that a use
may be experimental if it is to “determine whether an
invention will work for its intended purpose.” Polara

58a
Eng’g Inc. v. Campbell Co., 894 F.3d 1339, 1348 (Fed.
Cir. 2018) (quoting Clock Spring, L.P. v. Wrapmaster,
Inc., 560 F.3d 1317, 1327 (Fed. Cir. 2009)). But if that
determination has not already been made, then the invention would not be ready for patenting in the first
place. Therefore, any consideration of whether a use
was experimental would be superfluous, as there would
be no prima facie case of a § 102(b) bar to begin with.
This is how the majority resolves the case. See Majority Op. 23.
I am skeptical, however, of an approach that would
render the experimental-use doctrine superfluous
based upon the same considerations of an “intended
purpose” being considered elsewhere.5 Instead of rendering this doctrine superfluous, the better and more
accurate view is that the considerations of an “intended
purpose” are not really the same as between reduction
to practice and experimental use.
The experimental-use doctrine exists to afford an
inventor the ability to experiment with his or her invention via what would otherwise constitute a barring
sale or public use. The focus is on the inventor’s intent
in making the sale or using the invention publicly; if it
is for primarily experimental purposes, we do not consider the sale or use barring. See Electromotive Div.,
417 F.3d at 1211. Several factors have emerged to
evaluate that intent—e.g., the amount of control the
inventor maintained, whether there was a secrecy obligation, the degree of commercial exploitation, and
whether customers were aware the inventor was experimenting. Id. at 1212–14. Such factors are unrelat5

I am all the more skeptical given that Pfaff explicitly reaffirmed the continued vitality of the experimental-use doctrine.
525 U.S. at 64–65, 67.

59a
ed to how far along the invention is in terms of reduction to practice. Rather, they bear on the inventor’s
intent.
Given these differences, a subjective, expansive
understanding of an invention’s “intended purpose”—
one that accommodates the good-faith, perfectionist inventor—is considered as part of the experimental-use
inquiry. This is the way the Supreme Court addressed
the issue in the City of Elizabeth pavement case:
Durability was one of the qualities to be attained. [The inventor] wanted to know whether his pavement would stand, and whether it
would resist decay. Its character for durability
could not be ascertained without its being subjected to use for a considerable time. He subjected it to such use, in good faith, for the simple purpose of ascertaining whether it was
what he claimed it to be.
City of Elizabeth v. Am. Nicholson Pavement Co., 97
U.S. 126, 136 (1877); id. at 137 (justifying, on policy
grounds, delaying filing for a patent when the delay is
“occasioned by a bona fide effort to bring [the] invention to perfection, or to ascertain whether it will answer the purpose intended”).
In fact, most of the cases the majority analogizes to
in its not-ready-for-patenting discussion actually analyze this subjective, outside-the-patent-language “intended purpose” as part of experimental use. Majority
Op. 20–22; see Polara, 894 F.3d at 1349 (“The jury could
have properly based its finding of experimental use on
the need for testing to ensure the durability and safety
of the claimed [invention].”); Manville Sales Corp. v.
Paramount Sys., Inc., 917 F.2d 544, 550 (Fed. Cir.
1990) (“Because [the inventor] ... did not offer to sell the

60a
[invention] to anyone else until after it was tested in
the cold, rain, snow, and wind—an environment in
which it was designed to operate—we must agree with
the district court that experimentation, and not profit,
was the primary motive behind [the use].”); TP Labs.,
724 F.2d at 972.
Thus, if an inventor’s pre-critical-date sale or public
use is to test an unclaimed or undescribed, yet inherent,
feature of an invention (e.g., durability, safety), such
testing may support the inventor’s overall claim of experimental use and thereby avoid invalidity. See Electromotive Div., 417 F.3d at 1211–12. But neither this
testing nor the inventor’s assertions regarding his or
her subjective desire for such testing should control the
ready-for-patenting inquiry. Pfaff’s “ready for patenting” does not mean whenever the inventor was ready to
file for a patent.
IV
Given my conclusion that Medtronic made a prima
facie showing of both Pfaff prongs, I must address
whether Dr. Barry presented enough evidence that he
conducted the three surgeries with experimental purpose sufficient to negate an on-sale bar. Although the
majority does not address the parties’ respective burdens in this context, I address them briefly. I then address the evidence.
A
The Supreme Court addressed the burdens issue in
Smith & Griggs Manufacturing Co. v. Sprague:
In considering the evidence as to the alleged
prior use for more than two years of an invention, which, if established, will have the effect of
invalidating the patent, and where the defense is

61a
met only by the allegation that the use was not a
public use in the sense of the statute, because it
was for the purpose of perfecting an incomplete
invention by tests and experiments, the proof,
on the part of the patentee, the period covered
by the use having been clearly established,
should be full, unequivocal, and convincing.
123 U.S. 249, 264 (1887) (emphasis added). The Court
reiterated the rule in Root v. Third Avenue Railroad
Co., 146 U.S. 210, 226 (1892).
Over forty years later, the Second Circuit interpreted and applied this language. With Judge Learned
Hand writing, the court concluded that, on the issue of
experimental purpose, “the patentee has the burden,
once the [prior] use is proved, and he must establish it
by stronger proof than in ordinary civil suits.” Aerovox
Corp. v. Polymet Mfg. Corp., 67 F.2d 860, 861 (2d Cir.
1933) (Hand, J.). The court noted that the First, Third,
and Seventh Circuits all read Smith & Griggs the same
way. Id. (collecting cases). Indeed, the court “should
have supposed this settled” but for contrary language
in a Sixth Circuit case, Austin Machinery Co. v. Buckeye Traction Ditcher Co., which said that “the legal and
heavy burden of proof as to all the elements involved
continues until the end upon one who attacks the patent
grant.” 13 F.2d 697, 700 (6th Cir. 1926). Although
Judge Hand saw merit in both positions, he concluded
that the majority view was authoritative “until the Supreme Court decides otherwise.” Aerovox, 67 F.2d at
861. The Supreme Court has not decided otherwise.
This court has, though. In TP Laboratories, Inc. v.
Professional Positioners, Inc., the court addressed the
burdens applicable to a patent challenger’s § 102(b) defense and a patentee’s corresponding assertion of ex-

62a
perimental use. It followed Austin and held that “the
burden of proof [is] upon the party attacking the validity of the patent, and that burden of persuasion does not
shift at any time to the patent owner.” 724 F.2d at 971;
id. at 971 n.3 (citing Austin, 13 F.2d at 700). Although
the court acknowledged Smith & Griggs in a footnote, it
saw no conflict there. 724 F.2d at 971 & n.3.
The TP Laboratories court further opined that, even
if Smith & Griggs expressed a contrary view—i.e., one
that “impose[d] the ultimate burden of persuasion on the
patent holder rather than merely the burden of going
forward with countering evidence”—the Supreme
Court’s view would not be “tenable” in light of the subsequently enacted statutory presumption of validity in
35 U.S.C. § 282. 724 F.2d at 971 n.3. This reasoning was
questionable even at the time. As several commentators
noted, the presumption of validity long predated the
1952 Patent Act.6 The court’s reasoning has not improved with age. See Microsoft Corp. v. i4i Ltd. P’ship,
564 U.S. 91, 102 (2011) (“[B]y the time Congress enacted
§ 282 and declared that a patent is ‘presumed valid,’ the
presumption of patent validity had long been a fixture of
the common law.” (citing Radio Corp. of Am. v. Radio
Eng’g Labs., Inc., 293 U.S. 1 (1934))).
Thus, in TP Laboratories, the patentee’s burden of
persuasion on experimental use became a burden of production: “[I]f a prima facie case is made of public use,
6

E.g., William C. Rooklidge & Stephen C. Jensen, Common
Sense, Simplicity and Experimental Use Negation of the Public
Use and On Sale Bars to Patentability, 29 J. Marshall L. Rev. 1,
44–45 (1995) (cited favorably in Pfaff, albeit for a different proposition); see also 2A Chisum on Patents § 6.02[8], p. 6-292 n.41
(2017) (noting that “[t]he court’s basis for this holding is questionable” given that “[t]he enactment of [§] 282 on the presumption of
validity in 1952 was generally thought to have codified prior law”).

63a
the patent owner must be able to point to or must come
forward with convincing evidence to counter that showing.” 724 F.2d at 971 (emphasis added). And while TP
Laboratories at least required a patentee to come forward with “convincing” evidence of experimental use,
we later held that this does not imply a heightened
standard, such as one akin to “clear and convincing.”
Lisle Corp. v. A.J. Mfg. Co., 398 F.3d 1306, 1316 (Fed.
Cir. 2005). But cf. In re Dybel, 524 F.2d 1393, 1401
(CCPA 1975) (holding that, in light of a prima facie case
of an on-sale bar, the applicant “had the burden of establishing by clear and convincing evidence that such sales
were for experimental purposes”).
B
Even under the burden-of-production approach set
forth in TP Laboratories, I conclude that Dr. Barry’s
evidence of experimental purpose was insufficient as a
matter of law to negate a bar.
Most of Dr. Barry’s evidence of experimental purpose as to the three pre-critical-date surgeries is just
his own after-the-fact testimony. See Majority Op. 26–
27 (referencing Dr. Barry’s testimony).7 “[C]ertain
7

The majority suggests that other people were aware that
Dr. Barry was experimenting, Majority Op. 27–28, but its record
citations do not withstand scrutiny. Dr. Barry’s doctor colleague
testified that she understood him to be working on a technique
sometime “in the 2002–2004 time frame.” J.A. 1733. This testimony is vague and says nothing about these particular surgeries,
much less their experimental purpose. Dr. Barry’s nurse colleague said that it was “exciting when [the] team uses [the] levers
to correct the curve,” but said nothing about whether she understood the procedure to be experimental. J.A. 1370. And testimony concerning the DePuy medical-device representative relates
only to the development of surgical tools, not these particular surgeries or whether they were experimental. J.A. 1178–79.

64a
things are settled. Significantly, an inventor’s subjective intent to experiment cannot establish that his activities are, in fact, experimental.” Electromotive Div.,
417 F.3d at 1212. Indeed, we have repeatedly noted the
minimal evidentiary value of an inventor’s after-thefact, litigation-inspired testimony as to experimental
intent. E.g., LaBounty Mfg., Inc. v. ITC, 958 F.2d 1066,
1071 (Fed. Cir. 1992) (“An inventor’s protestation of an
intent to experiment, expressed for the first time during litigation, is of little evidentiary value, at best.”);
see also Sinskey v. Pharmacia Ophthalmics, Inc., 982
F.2d 494, 499 (Fed. Cir. 1992) (“[A]fter-the-fact testimony of an inventor’s subjective ‘experimental intent’
is entitled to minimal weight.”), abrogated on other
grounds by Pfaff, 525 U.S. 55 (1998); TP Labs., 724 F.2d
at 972 (similar).
Rather, we generally look to objective evidence to
determine whether a sale was for experimentation.
Electromotive Div., 417 F.3d at 1212–13 (listing various
objective indicia); see Lough v. Brunswick Corp., 86
F.3d 1113, 1121 (Fed. Cir. 1996); In re Smith, 714 F.2d
1127, 1135 (Fed. Cir. 1983). The record is thin on objective evidence indicating such a purpose.
To begin, Dr. Barry kept no records reflecting any
experimental intent as to these surgeries. We have observed that the absence of such records weighs against
a finding of experimental use. See Lough, 86 F.3d at
1121 (finding the lack of recordkeeping important even
with an inventor less sophisticated than Dr. Barry); see
also Clock Spring, 560 F.3d at 1328; Netscape, 295 F.3d
at 1322.
Dr. Barry also charged his normal fee for the surgeries. The majority concludes that this fact points toward a conclusion of experimental use. Majority Op.

65a
27–28. Yet I cannot see how charging one’s normal fee
makes the sale look like anything other than a normal
sale. See Electromotive Div., 417 F.3d at 1217; Sinskey,
982 F.2d at 499. Had Dr. Barry charged a premium, a
claim of experimental purpose would be difficult to
maintain. Had he charged less, it might suggest experimental purpose—or it might not. Compare EZ Dock,
Inc. v. Schafer Sys., Inc., 276 F.3d 1347, 1352 (Fed. Cir.
2002) (citing, in support of a conclusion of experimental
use, fact that customer did not pay full market price for
the product and received free equipment and free installation), with Petrolite Corp. v. Baker Hughes Inc.,
96 F.3d 1423, 1428 (Fed. Cir. 1996) (finding evidence of
a discount not determinative because a patentee “may
have created an on-sale bar despite losing money on a
sale” (citation omitted)). Either way, I disagree with
the majority’s conclusion that charging the normal fee
permits an inference of experimental use. Majority Op.
27–28. At best, this fact is neutral for Dr. Barry. But
the more natural inference is one of a sale for commercial purposes.
The majority places weight on the fact that Dr.
Barry maintained control over his method, but I find it
hard to do the same. Control can be a useful objective
indicator of experimental intent when it serves to distinguish between a commercial sale and one that is experimental. For example, if an inventor sells his or her
inventive product but retains some control over its use,
that scenario looks different from a normal sale—thus,
more likely experimental. Similarly, if an inventor sells
his or her product but forgoes an opportunity to retain
some control, that scenario looks more like a normal
sale. In this case, however, the nature of the inventor
(a practicing surgeon) and his invention (a surgical
method) means the inventor was likely going to retain

66a
sole control over the method for as long as he was practicing it. Although Dr. Barry’s control over his method
is consistent with experimental intent, given these circumstances, I cannot place much weight on this consideration.
Dr. Barry also did not inform his patients that he
was performing his surgical method for experimental
purposes. The majority dedicates considerable discussion to minimizing the importance of this fact. It carefully parses a statement in one of our prior cases, LaBounty, and finds that informing a customer of experimental intent is only relevant or necessary if at least
two premises exist: (1) the absence of other objective
evidence of experimentation; and (2) the placement of
the invention outside of the inventor’s control. Majority Op. 29–30. Respectfully, I believe the majority’s
two-necessary-premises requirement over-reads LaBounty and overcomplicates what should be a simple
observation: if an inventor tells his or her customer
that the invention is for experimental purposes, it is
more likely that the inventor’s intent was experimental; if he or she does not, it is less likely. Regardless, even if I were to accept that informing customers
of experimental intent is more important when control
is lost, that would not mean it is irrelevant when control is maintained. It remains useful as an objective indicator of the inventor’s contemporaneous intent.
In Dr. Barry’s case, all of the foregoing considerations—the lack of records indicating experimentation,
the normal fee charged, the control exercised, and the
failure to inform customers of experimental purpose—
would look the same if the surgeries were for commercial purposes. The only thing that affirmatively suggests these surgeries were experimental is that Dr.
Barry said they were—after the fact, during litigation.

67a
As a matter of law, that is insufficient to show experimental purpose.
*

*

*

The record in this case shows that Dr. Barry waited too long to file for the ’358 patent and that the onsale bar applies. I respectfully dissent from the majority’s contrary conclusion.

69a
APPENDIX B
** NOT FOR PRINTED PUBLICATION **
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
BEAUMONT DIVISION
CIVIL ACTION No. 1:14-cv-104
JUDGE RON CLARK
PRD
MARK BARRY, M.D.,
Plaintiff,
v.
MEDTRONIC, INC.,
Defendant.
Filed: July 21, 2017
ORDER DENYING RENEWED MOTIONS FOR
JUDGMENT AS A MATTER OF LAW AND
MOTION FOR NEW TRIAL AND/OR REMITTITUR
Plaintiff Dr. Mark. A Barry asserted indirect infringement of two patents, U.S. Patent No. 7,670,358
(“the ‘358 Patent”) and U.S. Patent No. 8,361,121 (“the
‘121 Patent”), which relate to a system and method of
aligning spinal vertebrae to correct for common spinal
deformities like scoliosis. After a seven-day trial, the
jury returned a verdict that was adverse in all respects
to Defendant Medtronic, Inc., which timely moved orally and by written motion for judgment as a matter of
law (“JMOL”) on several grounds under Rule 50(a).

70a
Dkt. # 406; see also Tr. at 1605–1629 (oral motions after
Dr. Barry rested); Tr. at 1920–1962 (oral motions at
close of evidence) (collectively, “Oral JMOL Motion”).
The court granted Medtronic’s Rule 50(a) JMOL motion
with respect to overseas indirect infringement of the
‘121 Patent but denied Medtronic’s Rule 50(a) JMOL
motion on all other grounds. JMOL Order, Dkt. # 442.
The court also denied Medtronic’s inequitable conduct
defense (Dkt. # 443), granted a 20% enhancement in
light of Dr. Barry’s motion for enhanced damages based
on willfulness, and denied Dr. Barry’s motion for attorney’s fees. Dkt. # 444. The court then entered Final
Judgment on May 16, 2017. Final Judgment, Dkt. # 452.
Medtronic timely renewed its JMOL motions pursuant to Rule 50(b) (Dkt. # 464), raising the same substantive arguments raised and rejected by this court
through its prior Rule 50(a) Motion. Dkt. # 463. Medtronic also moved for a new trial and/or remittitur pursuant to Rule 59 Dkt. # 464. Dr. Barry responded to
both motions. Dkts. ## 471, 472. For the reasons stated
previously with regard any previously raised arguments (JMOL Order, Dkt. # 442) and the reasons that
follow as to Medtronic’s arguments regarding a new
trial, Medtronic’s motions are denied.
I.

APPLICABLE LAW

A motion for JMOL may be made at any time before the case is submitted to the jury. FED. R. CIV. P.
50(a)(2). If the court does not grant a motion for JMOL
made under Rule 50(a), “the court is considered to have
submitted the action to the jury subject to the court’s
later deciding the legal questions raised by the motion.”
FED. R. CIV. P. 50(b). No later than twenty-eight days
after the entry of judgment, the movant may file a renewed motion for JMOL, and may include an alterna-

71a
tive request for new trial under Federal Rule of Civil
Procedure 59. FED. R. CIV. P. 50(b).
II. MEDTRONIC’S RENEWED MOTIONS FOR JMOL
A. JMOL Standard of Review
Generally, a motion for JMOL is granted when
there is no legally sufficient evidentiary basis for a reasonable jury to find for the party on an issue on which
that party has been fully heard. FED. R. CIV. P. 50(a);
Reeves v. Sanderson Plumbing, 530 U.S. 133, 150, 120
S. Ct. 2097, 2110 (2000). In entertaining a motion for
JMOL, the court must review all of the evidence in the
record, drawing all reasonable inferences in favor of the
nonmoving party. Reeves, 530 U.S. at 150, 120 S. Ct. at
2110. The court may not make credibility determinations or weigh the evidence. Id. Thus, although the
court should review the record as a whole, it must disregard all evidence favorable to the moving party that
the jury is not required to believe. Id. The court
should give credence to the evidence favoring the nonmovant as well as “evidence supporting the moving
party that is uncontradicted and unimpeached, at least
to the extent that evidence comes from a disinterested
witness.” Id.
Entry of JMOL is appropriate only if the jury’s
verdict is unsupported by substantial evidence or
premised on incorrect legal standards. Hearing Components, Inc. v. Shure Inc., 600 F.3d 1357, 1369-70 (Fed.
Cir. 2010) (citing Cambridge Toxicology Grp. v. Exnicios, 495 F.3d 169, 179 (5th Cir. 2007)). JMOL should be
denied when, viewing the evidence in the light most favorable to the nonmovant and giving the nonmovant
the benefit of all reasonable inferences, there is sufficient evidence of record to support a jury verdict in fa-

72a
vor of the nonmovant. See Poly-Am., L.P. v. GSE Lining Tech., Inc., 383 F.3d 1303, 1307 (Fed. Cir. 2004).
Substantial evidence supports the jury’s verdict where
the movant carries the burden of persuasion and the
jury could have reasonably concluded that this burden
was not met. See id. at 1309.
B. Discussion
Medtronic renews its motions for judgment as a
matter of law as to induced infringement, invalidity,
damages, willful infringement, inequitable conduct, and
standing. Mtn., Dkt. # 463, at p. 7. In addressing each
of these issues, Medtronic raises no new substantive
arguments that would support overturning the jury
verdict. The court already discussed in detail in its
JMOL Order (Dkt. # 442) its reasons for denying those
motions as to each of those issues. For the same reasons, the court denies Medtronic’s Renewed Rule 50(b)
Motion for Judgment as a Matter of Law as to each of
those issues.
III. MEDTRONIC’S MOTION FOR A NEW TRIAL
AND/OR REMITTITUR
A. Standard of Review—Motion for New Trial
Rule 59(a) of the Federal Rules of Civil Procedure
permits a trial court to grant a new trial based on that
court’s appraisal of the fairness of the trial and the reliability of the jury’s verdict. See FED. R. CIV. P. 59(a).
“For example, a new trial may be granted if the court
finds that the verdict is against the great weight of the
evidence, that the trial was unfair, or that prejudicial
error was committed in the course of the trial.” MidContinent Cas. Co. v. Eland Energy, Inc., 795 F. Supp.
2d 493, 546 (N.D. Tex. 2011), aff’d, 709 F.3d 515 (5th
Cir. 2013). However, the judgment should stand when

73a
the evidence presented at trial could reasonably support the jury’s verdict and when the verdict is not
against the great weight of the evidence. See, e.g.,
Carter v. Fenner, 136 F.3d 1000, 1010 (5th Cir. 1998);
Eyre v. McDonough Power Equip., Inc., 755 F.2d 416,
420–21 (5th Cir. 1985).
The grant or denial of a new trial is within the discretion of the district court. Scott v. Monsanto Co., 868
F.2d 786, 789 (5th Cir. 1989). The court’s discretion to
grant a new trial must be “tempered by the deference
due to a jury.” Id. at 789. While the court may weigh
the evidence in its review of a motion for new trial
(Whitehead, 163 F.3d at 270 n.2), the court must not
simply substitute its opinion for the collective wisdom
of the jury. See Smith v. Transworld Drilling Co., 773
F.2d 610, 613 (5th Cir. 1985).
B. Discussion
Medtronic moves for a new trial on infringement,
invalidity, and damages, citing both prejudicial error by
the court and a jury verdict against the great weight of
the evidence as to each of these issues. Medtronic also,
in the alternative to a new trial on damages, requests a
remittitur. The court addresses each of these issues
below.
(1)

Infringement

Medtronic claims that it is entitled to a new trial on
infringement for three reasons.
First, Medtronic claims that the testimony of Dr.
Barry’s survey expert, Dr. David Neal, should have
been excluded. The court has, at several junctures in
this case, previously addressed the admissibility of Dr.
Neal’s testimony and concluded that Dr. Neal’s testimony and his survey were not inadmissible. The court

74a
overruled Medtronic’s Daubert motion and addressed
the issue again in denying Medtronic’s JMOL Motion on
the issue of infringement. See Dkt. # 293 (Order Denying Daubert Mtn.); Dkt. # 442 (JMOL Order), at pp. 9–
11. For the same reasons, the court overrules Medtronic’s objections and denies its request for a new trial insofar as it relies on objections to Dr. Neal’s testimony
and the Neal Survey.
Second, Medtronic claims that the court improperly
precluded Medtronic from offering evidence of noninfringement based on the claim term “mechanically
linked.” The court explained on the record at trial and
in its JMOL Order, its ruling at trial that limited the
anticipated
testimony
from
Medtronic’s
noninfringement expert Dr. Rex Marco about the term
“mechanically linked.” That ruling was based on the
court’s conclusion that based on the way Dr. Marco was
testifying, his testimony about that term was in direct
conflict with the court’s claim construction of that term.
Courts are the gatekeepers of the evidence and in patent cases, are especially charged with ensuring expert
testimony comports with the court’s claim construction.
Medtronic made no offer of proof to show the court
misapprehended the tenor of Dr. Marco’s proposed testimony about “mechanically linked.” Counsel did not
even take the thirty seconds required to state the anticipated testimony to demonstrate a misunderstanding
by the court. Even if this ruling greatly curbed Medtronic’s non-infringement case, those limitations had
been in place since the court entered its claim construction order. The court’s ruling does not justify a new
trial.
Third, Medtronic claims that the jury’s verdict is
against the weight of the evidence, citing the same alleged shortcomings that it identified in its JMOL mo-

75a
tions. For the same reasons that the court previously
rejected those arguments, it rejects them as a bases for
Medtronic’s request for a new trial. Medtronic has not
sustained its burden of proving that the infringement
verdict was against the weight of evidence.
For these reasons, Medtronic is not entitled to a
new trial on infringement.
(2)

Invalidity

Medtronic claims that it is entitled to a new trial on
invalidity for two reasons.
First, Medtronic complains that the court erred in
instructing the jury on “an artificial and unsupported
distinction between medical experimentation and experimental use in the patent context” within the discussion of prior public use and prior public sale. Mot.
(Dkt. # 464) at p. 12. It is well within the court’s providence to instruct the jury in a manner that avoids potential confusion of the issues. Medtronic claimed that
the patents were invalid based on prior public use and
sale; in rebuttal, Dr. Barry sought to prove—and ultimately did prove—that all the pre-critical date uses, if
any practiced all the limitations of the claims, were
“experimental uses” in the patent law context, which
means they could not have been invalidating.
Starting from the motions in limine stage, it became clear to the court that because this case involved
medical procedures often used with young patients, the
concept of patent law “experimental use” could be confusing. The court concluded that the jury would need
an instruction to distinguish between valid “experimental use” and the unfairly prejudicial idea that Dr.
Barry was secretly experimenting with untested medical procedures on small children. Listening to counsel’s

76a
repeated arguments and responses to the court, it became clear to the court that Medtronic hoped to leave
the jury with an impression of the latter.
The court concluded at trial that an instruction that
clearly delineated between the two interpretations of
“experimental” would serve to head off any potential
jury confusion. Medtronic has not cited, and the court
has not located, any case law in which prejudicial error
resulted from instructing the jury in a way that distinguishes the meaning of patent-specific terms from the
meaning that might generally, and perhaps prejudicially, be understood by a layman. The fact that, as Medtronic states, the “Federal Circuit has repeatedly applied traditional experimental use principles in cases
involving medical patents” (Mot. (Dkt. # 464) at p. 13)
without an instruction does not render unnecessary the
court’s instruction in this particular case.
Second, Medtronic claims that the jury’s finding of
no invalidity is against the weight of the evidence.
Again, Medtronic cites the same substantive alleged
shortcomings cited in its prior JMOL motions; Medtronic even incorporates those arguments by reference
in this section. Mtn. (Dkt. # 464), at p. 15. For the same
reasons that the court previously rejected those substantive arguments, it rejects them as a basis for a new
trial. Medtronic has not proven that the invalidity verdict was against the weight of the evidence, and the jury’s verdict should stand.
For these reasons, Medtronic is not entitled to a
new trial on invalidity.

77a
(3)

Damages

Medtronic claims that it is entitled to a new trial on
damages for three reasons. The court addresses Medtronic’s remittitur request in the next section.
First, Medtronic claims that the testimony of Dr.
Barry’s damages expert Ms. Kimberly Schenk was unreliable, inadmissible, and should have been excluded.
Medtronic urges that Ms. Schenk’s reliance on the survey by Dr. Neal was improper and, in doing so, identifies the same alleged shortcomings raised in its Daubert motion to exclude Ms. Schenk’s testimony and its
JMOL motions. The court has previously ruled that
Ms. Schenk’s testimony is not inadmissible and not improper based on those very same alleged shortcomings.
Dkt. # 293 (Daubert Order); Dkt. # 442 (JMOL Order)
at pp. 25–26. For the same reasons, the court denies a
new trial on this ground.
Second, Medtronic claims, as it previously did
through its JMOL motions, that it is entitled to a new
trial because Ms. Schenk improperly calculated damages from the issuance date of the ‘358 Patent even
though, according to Medtronic, Dr. Barry did not establish inducing acts until after that date. See Mtn.
(Dkt. # 464) at p. 18. Medtronic’s objection on this
point, which the court previously rejected (JMOL Order (Dkt. # 442) at p. 26), again arises from the incorrect assertion that Dr. Barry did not establish inducing
acts until after March 2, 2010; however, as explained in
great detail in the court’s JMOL Order (Dkt. # 442),
there was substantial evidence of Medtronic’s induced
infringement starting from March 2010 and the ‘358 Patent issued on March 2, 2010, which is when Ms.
Schenk’s damages model starts. It was therefore not
against the great weight of evidence for the jury to

78a
conclude that Dr. Barry was entitled to damages for
infringement from that date. The cases relied upon by
Medtronic in the present motion certainly provide no
support for its flawed position; they do not hold that it
would be prejudicial error or goes against the great
weight of the evidence to uphold a damages verdict
when there is substantial evidence, including expert
testimony, that damages are due from the date on
which the damages expert’s model begins.
Finally, Medtronic claims that the damages award
is excessive and that it is entitled to a new trial because
the award is not “tied to the footprint of the alleged invention in the marketplace.” Dkt. # 464 at pp. 19–20.
Underlying these contentions are the same objections
Medtronic previously raised as to the Neal Survey and
Ms. Schenk’s allegedly unreliable testimony, which
were already considered and rejected in this court’s
JMOL Order, as well as prior sections of this Order.
Medtronic has therefore not proven that the damages
award is against the great weight of evidence or that it
is entitled to a new trial.
(4)

Remittitur

As an alternative to a new trial, Medtronic requests a remittitur to the amount of $1,358,400.00, an
amount it claims is based on Medtronic’s business records showing the number of times a VCM kit was
opened. Dkt. # 464 at p. 20. The base damages award
upheld by the court is computed as follows:
$15,095,970.00 for infringement of the ‘358 Patent within the United States plus $2,625,210.00 for infringement
of the ‘121 Patent within the United States, which totals $17,721,180.00. Because this award is not excessive
or so large as to appear “contrary to right reason,” remittitur is not warranted.

79a
a. Legal Framework
Remittitur for excessive damages is a procedural
issue not unique to patent law. Imonex Services, Inc. v.
W.H. Munzprufer Dietmar Trenner GMBH, 408 F.3d
1374, 1380 (Fed. Cir. 2005). Therefore, the law of the
Fifth Circuit governs this issue. Under Fifth Circuit
law, there is a “strong presumption in favor of affirming a jury award of damages.” Giles v. General Elec.
Co., 245 F.3d 474, 488 (5th Cir. 2001). The jury’s award
“is not to be disturbed unless it is entirely disproportionate to the injury sustained.” Caldarera v. E. Airlines, Inc., 705 F.2d 778, 784 (5th Cir. 1983). Only if the
court is “left with the perception that the verdict is
clearly excessive” should deference to the jury be
abandoned. Giles, 245 F.3d at 488. To grant remittitur,
the damages award must be “excessive or so large as to
appear contrary to right reason.” Laxton v. Gap, Inc.,
33 F.3d 572, 586 (5th Cir. 2003). The size of the remitted award is determined by the “maximum recovery
rule,” reducing damages to the maximum amount a reasonable jury could have been awarded. Id. at 488-89;
see also Shockley v. Arcan, Inc., 248 F.3d 1349, 1362
(Fed. Cir. 2001).
b. Discussion
The damages award in this case is not excessive
and is well within “right reasoning” based on the evidence presented to the jury. Damages for patent infringement must be “adequate to compensate for the
infringement, but in no event less than a reasonable
royalty[.]” 35 U.S.C. § 284. “The determination of the
amount of damages based on a reasonable royalty is an
issue of fact.” Unisplay, S.A. v. Am. Elec. Sign Co., 69
F.3d 512, 517 (Fed. Cir. 1995). Deciding how much to
award as damages in a patent infringement case “is not

80a
an exact science.” Kalman v. Berlyn Corp., 914 F.2d
1473, 1482 (Fed. Cir. 1990).
The court previously discussed in detail why the
damages awarded in the Final Judgment were supported by substantial evidence in its Order on JMOL. At
trial, Dr. Barry’s damages expert Ms. Schenk presented evidence supporting a royalty of $1200 per procedure based on a comparable license. She also testified,
based on the Neal Survey and the testimony of Dr.
Neal, as to the number of procedures that occurred
during the period of infringement. Ms. Schenk’s testimony withstood rigorous cross-examination. The jury
was then properly instructed, with no objection from
either side, on the reasonable royalty inquiry and the
relevant Georgia-Pacific factors. The jury applied the
relevant factors and evidently adopted Ms. Schenk’s
damages model in full, despite Medtronic’s attempts to
discredit her testimony and the testimony of Dr. Neal.
After trial, the court combed through the record and,
based on its decision to grant Medtronic’s Motion for
JMOL as to overseas indirect infringement of the ‘121
Patent, subtracted the amount that was not supported
by substantial evidence, or $2,625,210.00. Dkt. # 442
(JMOL Order) at p. 27. The court cannot conclude that
based on this, the award provided in the Final Judgment of $17,721,180.00 is excessive or that the jury’s
award was outside of “right reason.”
IV. CONCLUSION
For the foregoing reasons, Medtronic’s Motion for
Judgment as a Matter of Law (Dkt. # 463) and Medtronic’s Motion for a New Trial and/or a Remittitur
Under Federal Rule of Civil Procedure 59 (Dkt. # 464)
are DENIED.

81a
So ORDERED and SIGNED this 21 day of July,
2017.
/s/ Ron Clark
Ron Clark, United States District Judge

83a
APPENDIX C
** NOT FOR PRINTED PUBLICATION **
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
BEAUMONT DIVISION
CIVIL ACTION No. 1:14-cv-104
JUDGE RON CLARK
PRD
MARK BARRY, M.D.,
Plaintiff,
v.
MEDTRONIC, INC.,
Defendant.
Filed: May 16, 2017
FINAL JUDGMENT
Pursuant to Rules 58 and 54 of the Federal Rules of
Civil Procedure, and in accordance with the jury verdict
delivered on November 11, 2016 [Dkt. # 411], as well as
relevant post-trial orders [Dkts. ## 442, 444, 451]:
It is hereby ORDERED that Plaintiff Dr. Mark A.
Barry shall recover of and from Defendant Medtronic,
Inc.:
1.

$15,095,970.00 for infringement of the ‘358 Patent within the United States; plus

2.

$3,019,194.00, which represents a twenty percent (20%) enhancement on the damages

84a
awarded for infringement of the ‘358 Patent
within the United States; plus
3.

$2,625,210.00 for infringement of the ‘121 Patent within the United States; plus

4.

$525,042.00, which represents a twenty percent
(20%) enhancement on the damages awarded
for infringement of the ‘121 Patent within the
United States; plus

5.

Prejudgment interest
$2,357,849.00; plus

6.

Costs of court; and

7.

Pursuant to 28 U.S.C. § 1961, post-judgment
interest on damages awarded herein at the rate
of 1.07%;

in

the

amount

of

for all of which let execution issue if not timely paid.
It is further ORDERED that all relief requested for
claims of infringement, and damages that occurred before the trial, and all claims of invalidity and other defenses, that are not specifically granted herein or
granted in a prior order in this case are DENIED.
It is further ORDERED that there is no just reason
for delay in the entry of judgment as to all claims concerning infringement and invalidity that occurred before trial, and as to all claims of invalidity and other defenses, and that this Judgment as to such claims and
defenses is final and appealable.
So ORDERED and SIGNED this 16 day of May,
2017.
/s/ Ron Clark
Ron Clark, United States District Judge

85a
APPENDIX D
** NOT FOR PRINTED PUBLICATION **
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
BEAUMONT DIVISION
CIVIL ACTION No. 1:14-CV-104
JUDGE RON CLARK
PRD
DR. MARK BARRY, M.D.,
Plaintiff,
v.
MEDTRONIC, INC.,
Defendant.
[STAMP: Filed: November 11, 2016]
VERDICT FORM
When answering the following questions and filling
out this Verdict Form, please follow the directions provided in the Jury Instructions and throughout this
form. Your answer to each question must be unanimous. Some of the questions contain legal terms that
are defined and explained in the Jury Instructions and
its appendices. Please refer to the Jury Instructions if
you are unsure about the meaning or usage of any legal
term that appears in the questions below.

86a
Question No. 1 : Underlying Direct Infringement
Do you find by a preponderance of the evidence
that one or more surgeons performed a scoliosis surgery in the United States using the Medtronic accused
products in which any of the following claims were directly infringed? Answer “Yes” or “No” as to each
claim by writing “Yes” or “No” in the spaces provided.
a.

’358 Patent
Claim 4 yes

Claim 5 yes

b. ’121 Patent
Claim 2 yes

Claim 3 yes Claim 4 yes

If you answered “Yes” in any of the blanks provided
above in Question No.1, please proceed to Question
No. 2. However, if you answered “No” in all of the
blanks in Question No. 1, please proceed to Question
No. 3.
Question No. 2: Induced Infringement In the United
States
Do you find by a preponderance of the evidence
that Medtronic, Inc. has actively induced the direct infringement in the United States of any of the following
claims of the following patents? Answer “Yes” or “No”
as to each claim by writing “Yes” or “No” in the spaces
provided.
a.

’358 Patent
Claim 4 yes Claim 5 yes

b. ’121 Patent
Claim 2 yes Claim 3 yes Claim 4 yes
Please proceed to Question No. 3.

87a
Question No. 3 : Infringement Outside the United States
Do you find by a preponderance of the evidence
that Medtronic, Inc. supplied, or caused to be supplied,
from the United States all or a substantial portion of
the components of any of the systems claimed in claims
2, 3, and/or 4 of the ’121 Patent and actively induced
others to combine those components outside the United
States in a way that would infringe that claim if such
combination occurred within the United States? Answer “Yes” or “No” as to each claim of the ’121 Patent
by writing “Yes” or “No” in the spaces provided.
Claim 2 yes

Claim 3 yes Claim 4 yes

If you answered “Yes” in any of the blanks in Question Nos. 2 or 3, please proceed to Question No. 4. If
you answered “No” in all of the blanks in Question
Nos. 2 and 3 or all of the blanks in Question Nos. 1
and 3, please proceed to Question No. 5.
Question No. 4: Willful Infringement
Do you find by a preponderance of the evidence
that Medtronic’s infringement with respect to either of
the following patents was willful?
Answer “Yes” or “No” as to each patent by writing
“Yes” or “No” in the spaces provided.
a.

’358 Patent yes

b. ’121 Patent yes
Please proceed to Question No. 5.

88a
Question No. 5: Invalidity - Public Use
a.

Do you find by clear and convincing evidence that
any of the following claims of the ’358 Patent are
invalid because the claimed method was ready for
patenting and was also being openly used in public
before December 30, 2003? Answer “Yes” or “No”
as to each claim of the ’358 Patent by writing
“Yes” or “No” in the spaces provided.
Claim 4 no

Claim 5 no

b. Do you find by clear and convincing evidence that
any of the following claims of the ’121 Patent are
invalid because the claimed system was ready for
patenting and was also being openly used in public
before December 30, 2003? Answer “Yes” or “No”
as to each claim of the ’121 Patent by writing
“Yes” or “No” in the spaces provided.
Claim 2 no

Claim 3 no

Claim 4 no

Please proceed to Question No. 6.
Question No. 6: Invalidity - Prior Sale
a.

Do you find by clear and convincing evidence that
any of the following claims of the ’358 Patent are
invalid because the claimed method was ready for
patenting and also is the subject of a commercial
sale or offered for sale in the United States before
December 30, 2003?
Answer “Yes” or “No” as to each claim of the ’358
Patent by writing “Yes” or “No” in the spaces provided.
Claim 4 no

Claim 5 no

Please proceed to Question No. 7.

89a
Question No. 7: Invalidity - Prior Invention
Please answer all four parts (a, b, c, and d) of Question No. 7.
a.

Do you find by clear and convincing evidence that
either of the following claims of the ’358 Patent are
invalid because Dr. Lenke invented the invention
embodied in that claim by conceiving of that invention and reducing it to practice before Dr. Barry
conceived of the invention and Dr. Lenke did not
abandon, suppress, or conceal the invention?
Answer “Yes” or “No” as to each claim of the ’358
Patent by writing “Yes” or “No” in the spaces provided.
Claim 4 no

Claim 5 no

b. Do you find by clear and convincing evidence that
either of the following claims of the ’358 Patent are
invalid because Dr. Lenke conceived of the alleged
invention embodied by that claim before Dr. Barry
conceived of it, and Dr. Lenke was reasonably diligent in reducing the alleged invention to practice?
Answer “Yes” or “No” as to each claim of the ’358
Patent by writing “Yes” or “No” in the spaces provided.
Claim 4 no
c.

Claim 5 no

Do you find by clear and convincing evidence that
any of the following claims of the ’121 Patent are
invalid because Dr. Lenke invented the invention
embodied in that claim by conceiving of that invention and reducing it to practice before Dr. Barry
conceived of the invention and Dr. Lenke did not
abandon, suppress, or conceal the invention?

90a
Answer “Yes” or “No” as to each claim of the '121
Patent by writing “Yes” or “No” in the spaces provided.
Claim 2 no

Claim 3 no

Claim 4 no

d. Do you find by clear and convincing evidence that
any of the following claims of the ’121 Patent are
invalid because Dr. Lenke conceived of the alleged
invention embodied by that claim before Dr. Barry
conceived of it, and Dr. Lenke was reasonably diligent in reducing the alleged invention to practice?
Answer “Yes” or “No” as to each claim of the ’121
Patent by writing “Yes” or “No” in the spaces provided.
Claim 2 no

Claim 3 no

Claim 4 no

Please proceed to next page.
If you answered “Yes” as to any claim listed in
Question Nos. 2 or 3 and did not find the same claim
invalid in Question Nos. 5, 6, or 7, answer Question
No. 9.
If you did not answer “Yes” to any claim listed in
Question Nos. 2 or 3 or answered “Yes” as to a certain claim or claims in Question Nos. 2 or 3 and then
found that claim or each of those claims to be Invalid
by answering “Yes” as to that or those claims in
Question Nos. 5, 6, or 7, please do not answer Question No. 9, and proceed to review and initial the verdict form on the last page.

91a
Question No. 9: Damages
What sum of money, if paid now in cash, do you find
that Dr. Barry has proven by a preponderance of the
evidence would fairly and adequately compensate Dr.
Barry for the conduct you found to infringe?
Please answer in dollars and cents, if any, as to
each category:
a.

Compensation for Dr. Barry’s injury due to
infringement of the ’358 Patent that occurred within the U.S.
$ 15,095,970

b. Compensation for injury due to infringement of the ’121 Patent that occurred within the U.S. since February 18, 2014, the
date on which Dr. Barry filed this lawsuit
$ 2,625,210
c.

Compensation for injury due to infringement of the ’121 Patent that occurred outside of the U.S. since February 18, 2014, the
date on which Dr. Barry filed this lawsuit
$ 2,625,210
Total: $ 20,346,390

Please proceed to the next page.
You have now reached the end of the verdict form.
The foreperson is requested to initial and date this document in the space provided below as the unanimous
verdict of the jury.
11/11/16
DATE

/s/ DPL
INITIALS OF FOREPERSON

93a
APPENDIX E
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2017-2463
MARK A. BARRY,
Plaintiff-Appellee,
v.
MEDTRONIC, INC.,
Defendant-Appellant.
Appeal from the United States District Court for the
Eastern District of Texas in No. 1:14-cv-00104-RC,
Chief Judge Ron Clark.
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Appellant Medtronic, Inc. filed a combined petition
for panel rehearing and rehearing en banc. The petition was referred to the panel that heard the appeal,
and thereafter the petition for rehearing en banc was

94a
referred to the circuit judges who are in regular active
service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on May 6, 2019.
FOR THE COURT
April 29, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

